<html>
<title> - OVERSIGHT OF THE FEDERAL ENERGY REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 115-518]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-518
 
         OVERSIGHT OF THE FEDERAL ENERGY REGULATORY COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 12, 2018

                               __________
                               
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 30-615                WASHINGTON : 2020
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                 Kellie Donnelly, Deputy Chief Counsel
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Spencer Gray, Democratic Professional Staff Member
           
           
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

McIntyre, Hon. Kevin J., Chairman, Federal Energy Regulatory 
  Commis-
  sion...........................................................    19
LaFleur, Hon. Cheryl A., Commissioner, Federal Energy Regulatory 
  Commission.....................................................    31
Chatterjee, Hon. Neil, Commissioner, Federal Energy Regulatory 
  Commission.....................................................    43
Powelson, Hon. Robert F., Commissioner, Federal Energy Regulatory 
  Commission.....................................................    50
Glick, Hon. Richard, Commissioner, Federal Energy Regulatory 
  Commis-
  sion...........................................................    58

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Public Power Association and National Rural Electric 
  Cooperative Association:
    Letter for the Record........................................   217
Cantwell, Hon. Maria:
    Opening Statement............................................     3
    Article entitled ``Trump's crude bailout of dirty power 
      plants failed, but a subtler bailout is underway: A look at 
      some ominous goings-on in FERC'' by David Roberts, dated 
      March 23, 2018.............................................     5
Chatterjee, Hon. Neil:
    Opening Statement............................................    43
    Written Testimony............................................    45
    Responses to Questions for the Record........................   168
Glick, Hon. Richard:
    Opening Statement............................................    58
    Written Testimony............................................    60
    Responses to Questions for the Record........................   200
LaFleur, Hon. Cheryl A.:
    Opening Statement............................................    31
    Written Testimony............................................    33
    Responses to Questions for the Record........................   151
McIntyre, Hon. Kevin J.:
    Opening Statement............................................    19
    Written Testimony............................................    21
    Responses to Questions for the Record........................   104
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Powelson, Hon. Robert F.:
    Opening Statement............................................    50
    Written Testimony............................................    53
    Responses to Questions for the Record........................   187
Utilities Technology Council:
    Statement for the Record.....................................   219


         OVERSIGHT OF THE FEDERAL ENERGY REGULATORY COMMISSION

                              ----------                              


                         TUESDAY, JUNE 12, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order as we meet to conduct oversight of the Federal 
Energy Regulatory Commission, the FERC.
    I welcome each of you this morning. I just noted that it is 
exceptionally good to see five witnesses at the table. For a 
while, for too long, the FERC was down in numbers. Commissioner 
LaFleur, you certainly knew that full-well, but again, thank 
you all for joining us this morning.
    In the late 1970s, this Committee was re-constituted with a 
renewed focus on energy. Shortly thereafter, Congress 
established the Department of Energy and transformed the old 
Federal Power Commission into what we now call the FERC.
    Our predecessors invested our Committee with jurisdiction 
over national energy policy, including both the Department of 
Energy and FERC. This complemented our historic role as the 
stewards of the laws that govern our nation's lands and the 
Department of the Interior.
    At the time, there was a strong preference for a ``wide 
area'' view of the energy and resources landscape and a 
balanced approach to energy law and regulation. I think that 
remains a good idea today. After all, energy affects the life 
of every American. Our security, wealth, and capacity for 
innovation all depend on affordable and reliable energy, and 
our laws and regulations bear directly on the ability of the 
energy sector to serve our nation.
    During my tenure here, we have had more than a few hearings 
where we have heard from FERC's Chairman or one of its members, 
but it has been about a decade now that we have convened a 
formal oversight hearing with all five Commissioners 
testifying. So this is somewhat significant this morning. It is 
perhaps not as significant as the Caps parade going down the 
street right now, but I think it is significant nonetheless.
    [Laughter.]
    With a quorum restored last year, four new Commissioners 
serving, and a host of consequential issues in the news, this 
is a good moment to review where FERC is headed. We are 
fortunate to have the Chairman and all of the Commissioners 
here to take part in the discussion. Because the five of you 
are so well-known to us here on the Committee, I will simply 
welcome you and thank you all for being here.
    Your testimony touches on several critical issues that are 
of particular interest.
    First, if we are going to remain a prosperous nation with 
strong growth and affordable energy, we need our interstate 
pipeline network and LNG facilities to continue to meet 
customer demands for natural gas. This resource serves a 
variety of increasingly critical needs ranging from keeping us 
warm, to enabling our manufacturing renaissance, and, 
increasingly, to fueling the electric grid. LNG exports from 
states like mine, Alaska, represent a significant economic 
opportunity for many states, scores of communities, and looking 
abroad, America's friends and allies.
    Second is whether, and if so how and when, the Commission 
will act decisively to address fast-moving changes in the mix 
of generating plants on the bulk power system. Now I have my 
concerns with the steps that the Department of Energy is 
reported to be considering, but I also recognize that they are 
trying to fill a perceived vacuum. In my view, FERC should be 
pointing the way on policy improvements that address grid 
vulnerabilities, while reaffirming our commitment to 
competition in wholesale power markets. And frankly, as one who 
has been concerned about this issue for years now, I find it 
unfortunate that prior Commissions did not lead more 
effectively.
    We must increase the light and lower the heat in policy 
debates about price formation, state resource preferences, and 
subsidies. Is it possible for market participants and 
regulators to step back and determine whether transparent, 
workable adjustments can be made to the thousands of pages of 
tariffs that administer the market mechanisms that have, in the 
main, proven themselves effective over the last 20 years or so? 
Equally important, can the Commission take steps soon enough to 
make any necessary adjustments or, alternatively, to pronounce 
definitively that adjustments are not needed? Again, as both 
individuals and as a Commission, it is critical for you all to 
engage.
    Third is whether there are modifications to regulations or, 
if necessary, laws that govern FERC jurisdictional 
hydroelectric facilities or qualifying facilities under PURPA 
that could be or should be aligned more closely with today's 
energy realities.
    And then fourth on my list, but certainly not least among 
my concerns, are the security issues, which are very, very 
important--that includes cybersecurity, clearly a top priority 
for us all given the attacks and breaches that we are seeing. 
It also includes the FERC policies that bear on the physical 
security of energy facilities, such as the Commission's 
requirements related to critical energy infrastructure 
information.
    So Mr. Chairman, Commissioners, thank you again for being 
here with us this morning. Thank you for the work that you do. 
As we review FERC's regulatory program before the Committee and 
how it is working, again, we appreciate your contributions at 
so many different levels. We have a number of substantive 
issues to discuss this morning, and I look forward to the 
conversation.
    With that, I now turn to Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you.
    Thank you, Madam Chair. Thank you for scheduling this 
important hearing.
    I, too, want to welcome all the FERC Commissioners here. It 
is good to see a full and functioning FERC. Your 
responsibilities in overseeing and implementing the Federal 
Power Act, particularly as it relates to just and reasonable 
power rates, is something the Pacific Northwest holds very 
dear.
    I know the past six months have been a very busy time for 
the Commission. The new energy sector that is cleaner, more 
affordable, and more sophisticated comes with many policy 
changes. I want to applaud the Commissioners for several 
important unanimous decisions this year.
    In my view, you started things off right by rejecting 
Secretary Perry's radical proposal to force consumers to bail 
out uncompetitive coal, and I hope that we can return to that 
topic in a minute. I really do believe, not only is the 
underlying policy wrong, but it is a threat on your 
independence and oversight to be directed this way.
    In Order 841 you directed market operators to remove 
barriers to energy storage, including lithium batteries and 
pumped hydro in wholesale markets. This was a long-overdue and 
good step.
    Order 843 established a cybersecurity standard for supply 
chain controls. Cybersecurity will be a never-ending challenge 
for us, but I strongly urge you to keep building on the 
progress that you have already made.
    I also want to highlight a couple of concerns about the 
policy issues you were considering.
    The State of Washington has never had something like a 
``minimum offer price rule.'' After the Commission's recent 
split decision affecting New England, I am sure glad we do not.
    For the sake of consumers across the nation, I hope that 
the Commission does not double down on Paragraph 22 of your 
March order. This topic echoes the decisive ``standard market 
design'' debate that many of us still remember. The Federal 
Power Act does not direct the Commission to protect so-called 
``investor confidence'' by undermining legitimate state 
programs.
    I am also concerned about the Commission's recent split 
decision to analyze fewer climate impacts of natural gas. I am 
struggling to understand how this squares with the D.C. Circuit 
Court decision to conduct more climate analysis. The Commission 
may be creating more uncertainty for the public and industry by 
not performing the hard look at projects impacted by the 
National Environmental Policy Act.
    Finally, Chairman McIntyre, I know you have announced a 
potential rewrite of PURPA regulations. I want to point out 
that Congress has not amended this statute since 2005, and that 
is no accident. Before moving forward, I urge you to release a 
thorough, comprehensive review of each state's implementation 
of PURPA. This would include issues with contract terms and 
slow interconnections.
    I do want to address what I consider the big elephant in 
the room. I know people have probably seen various articles 
that have been written about this. I think, Mr. Chatterjee, you 
are featured in one with a very prominent picture, but so is 
Secretary Perry, and many others. I just want to say all of you 
are getting a lot of attention, and that is because the 
Commission work is so complex, but it should not really be 
about bailing out one sector.
    There is no mystery behind the radical proposal of the 
Department of Energy memo before the National Security Council. 
It was found out that Murray Energy sent a letter to the Trump 
Administration with prewritten Executive Orders to bail out 
coal mines, eliminate worker safety, and allow more pollution. 
He called for an emergency DOE order to keep the plants with 
fuel onsite open for two years, and that is exactly what DOE is 
proposing. Well, I know that the President wants to deliver on 
this, but the grid operators say the emergency does not exist. 
The PJM said there is ``no need for such a drastic action.''
    It does not matter that this plan would cost consumers 
billions. Last fall multiple independent estimates found that 
DOE's narrower proposal to FERC would cost consumers $10 
billion a year. As I said, just and reasonable is such an 
important aspect of what you do in holding down energy costs to 
consumers. That is your job. That is your day job at the 
federal level. That is why we have a FERC so that as 
developments move forward on power, it is just and reasonable 
rates, unless somebody wants to go back to another day and era 
where we are doing even more to make sure that we are 
protecting consumers.
    Assistant Secretary Bruce Walker admitted at a House 
hearing that DOE has conducted zero analysis of this emergency 
order which could cost consumers and taxpayers.
    As I mentioned, one article that I will submit for the 
record called, ``A look at some ominous goings-on in FERC,'' 
basically says that some are coming to the Federal Energy 
Regulatory Commission to guarantee profits for coal. Well, I 
guarantee you that is not the mission of the Federal Energy 
Regulatory Commission. So I will submit that for the record, 
Madam Chair.
    The Chairman. Without objection, it will be included.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

 
    Senator Cantwell. I hope my colleagues stand prepared to 
join in protecting consumers against this alarming plan, just 
as we did on the previous one. There is so much to be done. I 
know that you all working together can accomplish that.
    We look forward to today's discussion and the continuing 
changing of what is happening in the marketplace. But again, 
FERC must continue to play that role the Federal Power Act 
gives you on just and reasonable rates.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    We will now proceed to five-minute statements from the 
Chairman as well as the Commissioners. As I mentioned, you are 
all well-known to us, so I will forgo your backgrounds and just 
acknowledge the good work of each of you as a Commissioner and 
as Chairman.
    If you would please lead off, Chairman McIntyre.
    Please know that your full statements will be included as 
part of the record.
    Please proceed.

 STATEMENT OF HON. KEVIN J. MCINTYRE, CHAIRMAN, FEDERAL ENERGY 
                     REGULATORY COMMISSION

    Mr. McIntyre. Thank you, Chairman Murkowski.
    Madam Chair, Ranking Member Cantwell and members of the 
Committee, thank you for this opportunity to appear before you 
to discuss the important work of the FERC, an independent 
federal agency that regulates vital aspects of our nation's 
electric, natural gas, hydropower and oil pipeline industries.
    As you know, those aspects include the wholesale sale of 
electricity and natural gas and interstate commerce, the 
determination whether to approve proposals to build liquified 
natural gas terminals and interstate natural gas pipelines, as 
well as the licensing of hydropower projects. I am honored to 
serve as FERC's Chairman.
    I joined FERC as Chairman in December 2017. By way of 
guiding principles and philosophy of governance, I place great 
weight on the importance of the rule of law. I believe that any 
consideration of potential action by FERC or, for that matter, 
by any other governmental body, must begin with a firm 
understanding of the applicable legal requirements and any 
action taken must satisfy those legal requirements in full.
    I also believe strongly that FERC's policies and procedures 
should be efficient and effective to ensure that we address, in 
timely fashion, any and all issues validly brought to us in our 
service to the public and that we should review our existing 
policies and procedures from time to time to ensure that they 
are best enabling us to fulfill our statutory mission and to 
serve the public.
    To that end I have, for example, recently initiated a 
review of the Commission's natural gas pipeline certificate 
application program and have reinitiated a review of our long-
standing policies under the Public Utility Regulatory Policies 
Act of 1978 which has been mentioned already, PURPA, to address 
issues that have arisen on these matters in the past few years. 
These steps are intended not only to enhance and improve the 
substance of the Commission's work in these areas but also to 
improve our procedures that we use in performing that work.
    With those principles in mind, I would like to highlight 
just a few of the additional issues we have been addressing 
since I became Chairman and some of the steps the Commission 
has taken thus far to address them. My full written testimony 
addresses these issues in greater detail.
    A key matter on our agenda this year has been the 
resilience of the bulk power system. In January we issued an 
order finding that the Secretary of Energy's proposed rule on 
grid resilience did not satisfy the requirements of the Federal 
Power Act and, therefore, we terminated the proceeding that had 
been initiated by that DOE proposed rule. However, recognizing 
that resilience in the bulk power system is an important 
mission that warrants further attention, we also initiated a 
new proceeding of our own to evaluate the resilience of the 
bulk power system beginning with the regions operated by 
regional transmission organizations, RTOs, and independent 
transmission system operators, ISOs, because they have wide 
overview over the operations of their regions and, thus, are 
well positioned to provide insight into region-wide resilience 
issues.
    FERC received many dozens of submittals of comments from 
interested parties and the public, including the ISOs and RTOs, 
public utilities, interstate gas pipelines, nuclear entities, 
coal producers, environmental groups, state public service 
commissions and other entities. We are now actively reviewing 
this substantial record and considering whether additional FERC 
action is warranted to address greater resilience.
    In April, we issued a notice of inquiry seeking information 
and stakeholder perspectives to help us explore whether and, if 
so, how we should revise the approach we currently follow in 
determining whether a proposed natural gas pipeline project is 
or will be required by the present or future public convenience 
and necessity as the Natural Gas Act has set forth that 
standard. The currently effective version of FERC's gas 
certificate policy statement dates to 1999 and, given the 
changes in the industry since then, it is time for a fresh 
review and that is what we have undertaken.
    Similarly, I recently directed FERC staff to reinitiate a 
previously begun review of FERC's policies under PURPA. Much 
has changed in the industry since 1978. I understand that 
legislation has been introduced both in the Senate and in the 
House to change certain aspects of PURPA; but at FERC, we 
expect to be able to build on the previously initiated record 
and take a close look at whether there are steps that we can 
take administratively to improve our PURPA program.
    There are a host of other important issues that we are 
devoting our attention to. My fellow Commissioners will address 
a number of those matters in their testimony.
    And with that, I thank you again for inviting all of us to 
appear before you and look forward to answering your questions.
    [The prepared statement of Mr. McIntyre follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    The Chairman. Thank you, Mr. Chairman, I appreciate it.
    Commissioner LaFleur, welcome.

  STATEMENT OF HON. CHERYL A. LAFLEUR, COMMISSIONER, FEDERAL 
                  ENERGY REGULATORY COMMISSION

    Ms. LaFleur. Thank you very much, Chairman Murkowski, 
Ranking Member Cantwell and members of the Committee. My name 
is Cheryl LaFleur. I've been a Commissioner at FERC for eight 
years, and I've been fortunate to appear before this Committee 
several times. I'm very happy to be here today with the full 
Commission.
    During my tenure on the Commission, much of our work has 
been driven by the ongoing transformation of the nation's power 
supply. We are, of course, experiencing a significant increase 
in natural gas, renewable, storage and demand cyber sources, 
driven by changes in technology, economics and policy. These 
transformative developments are not being driven by FERC but 
are shaping much of our work on markets, infrastructure and 
reliability.
    Today I'll discuss our regulation of markets, and in my 
written testimony I expand on that as well as a bit on our 
transmission work.
    The organized wholesale electricity markets that currently 
serve more than two-thirds of Americans were launched roughly 
20 years ago to promote greater competition in the electric 
sector. While they continue to require vigilance as resources 
change, I believe markets have successfully achieved their 
objectives. They've protected reliability and promoted 
efficiency and innovation while shifting investment risk from 
captive customers to investors. They've realized these benefits 
while incorporating different structures in different regions 
reflecting different state and regional priorities and 
prerogatives. The markets have grown dramatically in the past 
several years with both the mid-continent ISO and the Southwest 
Power Pool nearly doubling in size.
    In the Western United States, the California ISOs energy 
and balance market now serve 55 percent of the load in the 
Western interconnection with further commitments from public 
and private power entities that would bring it to 65 percent by 
2020. The California ISO has also announced plans to offer day-
ahead market services to participants in the energy and balance 
market and a group of electricity providers in the Rocky 
Mountain states are exploring joining the Southwest Power Pool.
    Notably, all of these market expansions are being driven by 
decisions at the regional, state and local level, not from 
Washington. As the resource mix has evolved over the past 
decade, the Commissioners work to ensure that markets provide 
reliable service at fair and reasonable rates. We've taken a 
number of steps to make sure the markets are fair to all 
resources, including new technologies like wind, solar, demand 
response and storage.
    We've worked to ensure resilience by overseeing market 
changes to increase compensation to resources that are online 
in times of system stress and extreme weather, including 
baseload resources. In the energy market, we've worked on a 
number of steps since 2014 to improve price formation to make 
sure the markets send correct price signals.
    Another issue we've focused on extensively in recent years 
is the interplay between FERC-jurisdictional markets and state 
policies, particularly in the eastern markets that regulated 
their generation--deregulated their generation and use 
mandatory capacity markets to ensure resource adequacy. There's 
a tension between state initiatives to select specific 
resources and the operation of the market to select and pay 
other market-based resources needed for resource adequacy.
    I believe it's important that we allow for tailored, 
regional solutions that seek to adapt market rules to preserve 
the benefits customers derive from markets while also 
respecting state policy as much as practicable. I believe a 
proposal from ISO New England that the Commission recently 
approved is an example of how the Commission can constructively 
address this tension.
    Finally, our work on electric markets also bears on our 
work on resilience. The Commission has taken a number of 
actions over the years to address grid resilience both in our 
markets and tariff work and in our oversight of reliability 
standards. The current debate focuses on whether the continued 
retirement of certain uneconomic coal and nuclear generating 
facilities threaten grid resilience. To date, I believe we 
successfully managed the transition in the resource mix without 
compromising reliability and resilience, and I'm confident we 
can continue to manage it going forward. Indeed, I believe the 
resource turnover we're experiencing is an expected consequence 
of markets, and technological change and the lower prices that 
result from well-functioning markets are a benefit to 
consumers, not a problem to be solved, unless reliability is 
compromised.
    The Commission is currently considering the record 
developed in our pending resilience docket which I hope will 
help us determine whether any further Commission action is 
needed to adapt market rules, reliability standards, 
transmission planning or pro forma agreements in response to 
changes on the grid. Should we conclude action is needed, I 
hope we'll do it in a fuel-neutral way that's fair to all 
resources as we have done in other instances.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. LaFleur follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairman. Thank you, Commissioner LaFleur.
    Commissioner Chatterjee, wonderful to welcome you to the 
Committee.

STATEMENT OF HON. NEIL CHATTERJEE, COMMISSIONER, FEDERAL ENERGY 
                     REGULATORY COMMISSION

    Mr. Chatterjee. Thank you, Chairman Murkowski, Ranking 
Member Cantwell, and members of the Committee.
    Thank you for the opportunity to appear before you today to 
provide an update on the important work we are doing at the 
Federal Energy Regulatory Commission.
    This is an exciting and transformational moment in our 
nation's energy history, and the Commission takes very 
seriously our role in ensuring that all Americans have reliable 
and affordable energy. I'd like to focus my remarks on the 
Commission's efforts on the Public Utility Regulatory Policies 
Act of 1978, or PURPA, which has been discussed already, and 
bulk power system reliability as well as a few key areas where 
Congress and the Commission can continue working together to 
make progress.
    I do want to note that it's an honor to be back here in the 
United States Senate with so many whose leadership on these 
issues educated me and prepared me for this role. And I'd be 
remiss if I didn't recognize the historical significance that 
today Senator McConnell became the longest-serving Republican 
leader in the history of this institution, a testament to his 
dedication to the people of Kentucky and his work ethic. And as 
a native Kentuckian who had the good fortune to serve him, I'm 
quite proud of his achievement.
    But now, on the first issue I'd like to address today, 
which is PURPA. Today's energy environment is fundamentally 
different from that of 1978 when PURPA was enacted and 
stakeholders are rightly asking whether changes are needed to 
better align the policy with our modern energy landscape. This 
has been a top priority of mine since coming to the Commission, 
and I know it's also of great interest to the Committee as 
Senator Barrasso recently introduced a PURPA reform bill.
    I'm grateful for my friend and colleague, Chairman 
McIntyre's, recent announcement that the Commission will review 
its current PURPA policy to ensure it continues to promote 
development of renewable resources and co-generation while 
protecting customers and competition. I look forward to 
engaging with members of this Committee as part of this 
important exercise and I take seriously your comment, Senator 
Cantwell, that we have a thorough and transparent record.
    Turning to another critical topic, I'd like to discuss our 
efforts on bulk power system reliability. Congress delegated to 
the Commission the responsibility to approve and enforce 
mandatory reliability standards for the grid. With our partners 
at the North American Electric Reliability Corporation, we're 
continually reviewing those standards ensuring they evolve with 
the industry and form an effective baseline for addressing day-
to-day grid reliability issues.
    The Commission also works to maintain reliability through 
oversight of jurisdictional wholesale energy capacity and 
ancillary services markets. For instance, we've taken actions 
to ensure all new generators provide certain essential 
reliability services such as voltage and frequency control. The 
grid resilience proceeding is another good example of how the 
Commission continues to refine rules as needed to preserve 
reliability. I know this Committee is certainly following that 
proceeding with keen interest given its potential significance 
to many across the various states you all represent. In fact, I 
had the pleasure of speaking with Senator Daines at length on 
the importance of FERC's resilience proceeding during the 
Energy Summit he hosted in Montana recently. So my colleagues 
and I welcome engagement with members of the Committee, 
industry and the states on how FERC can better promote bulk 
power system reliability.
    Because of historically low natural gas prices and 
technological innovation, our country is experiencing rapid, 
unprecedented changes in our generation resource mix. These 
trends promise tremendous benefits to consumers through lower 
prices and greater choice, but they also highlight a need for 
vigilance to maintain reliability.
    It's a particularly complex regulatory challenge. Here's 
what I mean. The reliability of our grid is increasingly 
dependent on natural gas generation and therefore it's 
supporting pipeline infrastructure. Since 1999 our certificate 
policy statement has set parameters for predictable regulatory 
process by which that natural gas pipeline infrastructure has 
been reviewed. Importantly, the document establishes a 
framework in which companies, not customers, bear the financial 
risks of pipeline development.
    But much has changed in those nearly two decades. Natural 
gas generation is displacing other fuel types in our nation's 
generation mix and for the first time since 1958 the U.S. is a 
net exporter of natural gas. That accomplishment is 
attributable, in no small part, to members of this Committee, 
such as the Chairman and Senator Gardner, who have championed 
the importance of natural gas export infrastructure in 
advancing U.S. geopolitical interests.
    All of these factors underscore the basis for reviewing our 
certificate policy as a matter of good regulatory practice. 
This remains a high priority for the Commission, and I look 
forward to continued conversations on the path forward which 
leads me to another important issue facing the Commission which 
is cybersecurity.
    It's no secret that cybersecurity threats to our bulk power 
system are becoming more frequent and sophisticated. As we rely 
more heavily on natural gas generation, I have growing concerns 
that the supporting pipeline system is a particularly 
attractive target for cyberattacks. Commissioner Glick and I 
have been collaborating on addressing this risk and I know, 
Senator Cantwell, you have also been outspoken about your 
concerns related to this issue. We look forward to working with 
the Committee on this critical subject.
    In closing, I again want to express my appreciation for the 
opportunity to come before the Committee today, and I look 
forward to working with you closely in addressing the issues 
that will define the path forward for American energy.
    Thank you.
    [The prepared statement of Mr. Chatterjee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    The Chairman. Thank you so much, Commissioner Chatterjee.
    Welcome to you, Commissioner Powelson. Thank you for being 
here.

  STATEMENT OF HON. ROBERT F. POWELSON, COMMISSIONER, FEDERAL 
                  ENERGY REGULATORY COMMISSION

    Mr. Powelson. Good morning Chairman Murkowski, Ranking 
Member Cantwell and members of the Committee. First off, thank 
you for bringing us together here. Although it took a decade to 
get us back, I'm proud to report the band is back together for 
a reunion tour here.
    [Laughter.]
    Since joining the Commission last August, I have thoroughly 
enjoyed the opportunity to work with my colleagues in a 
bipartisan manner to address some of the complex issues facing 
the energy marketplace.
    Today, my testimony will focus on two areas. First, I will 
discuss the electric grid and its changing dynamics and the 
evolving aspect of consumer preferences, technology innovation 
and, of course, state policy initiatives. Second, I'll also 
pick up where Senator, or excuse me, Commissioner Chatterjee 
left off on cybersecurity.
    So let me start this morning by saying the nation's bulk 
power system has seen over the last decade some tectonic 
shifts. There are several drivers behind these shifts.
    First is the participation of renewable energy as part of 
our bulk power system dispatch. In fact, last year in this 
country ten percent of our bulk power came from renewable 
energy resources. I also want to set forth in my conversation 
with you today some data points. Today in the U.S. there's over 
27 gigawatts of installed solar capacity on the grid. In 2005 
that number was 2.5 gigawatts. Today, there's 90 gigawatts of 
installed wind capacity on the grid. In 2005 that number was 
less than 10 gigawatts. So I share that with you because it, 
kind of, shows you some of the evolution of our bulk power 
system. Obviously, it's getting cleaner, it's getting efficient 
and technology and states and leadership of the FERC and state 
public utility commissions are driving that.
    The second driver I see behind the evolving grid is the 
shale revolution. Due to advancements in production and 
technology, many parts of the country are experiencing one of 
the greatest generation fuel mixes in our history. Today, 
natural gas represents 32 percent of the overall dispatch 
compared to only 19 percent back in 2005. In fact, in my home 
state we are producing 16 BCF a day of natural gas with over 
500 trillion cubic feet of supply. In 2010 we were only 
producing three to four BCF of natural gas, and let me add that 
in 2004, that is when we embarked on the first exploratory well 
in the Marcellus region of Pennsylvania. So just another 
dataset to look at in terms of the evolution of natural gas 
production in our country.
    As Commissioner Chatterjee mentioned, in 2008 as a country, 
we were importing natural gas into this country. Today we are 
approving LNG export licenses. One nearby that I recently 
toured is the Cove Point facility.
    Now with the advent of large-scale battery storage and 
distributed energy resources, innovation has another important 
driver, is providing another important driver on the horizon 
for the bulk power system. I think in recognition of this, the 
Commission, as Senator Cantwell mentioned, issued FERC Order 
841 which directed grid operators to remove barriers for 
participation in the electric storage resource marketplace and 
I think, again, this is another benefit not only to the overall 
power system, but it's also a tremendous opportunity for states 
like California and Pennsylvania to adopt these new 
technologies.
    Add to this equation the evolution of distributed energy 
resources, DERs, and we are seeing a whole new grid emerge. In 
fact, according to a NERC report, DERs have the capability to 
ride through disturbances, contribute reliability services and 
follow dispatch signals.
    These new technologies have the potential to turn the one-
directional, centralized electric grid into a multi-
directional, decentralized grid that utilizes technology 
innovation to produce consumer benefits and increase 
reliability and resilience to the overall bulk power system. 
And I should share with you, as we're setting up a conversation 
about renewable investment and the evolution of gas plays like 
Marcellus, is a look at the EIA data. It says that for the 
first time since 1970 in our country, the bulk power system has 
emitted less CO2 than our transportation sector. Again, a 
reconfirmation or reaffirmation of where our grid is headed.
    As a former state regulator from the great Commonwealth of 
Pennsylvania, I came to the FERC with a very unique 
perspective. I understand how important it is for states to 
have the ability to craft their energy goals and futures and I 
also think it's important, as it was mentioned earlier by my 
colleagues, I think the term ``tailored regional solutions'' is 
something that is alive and well in how the FERC is conducting 
its affairs.
    I also want to reiterate to this Committee, the FERC does 
not pick winners and losers in the market. Instead, we create 
an environment where the market can pick the winners and 
losers. And while we're talking about winners and losers, I 
want to take this opportunity to really focus in on the topic 
that is so critically important to all of us, and that is the 
protection of our grid and the cyber threats that are 
constantly evolving.
    And I'll talk later this morning about that, but I just 
want to take this opportunity to commend the work that's been 
done here at the FERC. I'm proud to report that in the past 12 
months the FERC has conducted over a dozen training and network 
sessions with state public utility commissions. We've developed 
and distributed cyber checklists to state commissions. My state 
was one of them before I joined the FERC. We developed incident 
report response procedures with the State of New Hampshire; we 
conducted meetings and prepared white papers on security 
considerations for moving cloud-based architecture; we provided 
assistance to technical reviews of state cyber plans; and we 
worked with other state and federal agencies to provide both 
unclassified and classified briefings.
    So I'm very proud of the work that's being done, but this 
is a work in progress for all of us whether it's the FERC, the 
DOE or back in our home states with our state police, our state 
public utility commissions.
    And let me conclude by thanking the Committee for bringing 
us here today, and I look forward to your questions here later 
on.
    Thank you.
    [The prepared statement of Mr. Powelson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    The Chairman. Thank you, Commissioner.
    Commissioner Glick, good to have you before the Committee.

 STATEMENT OF HON. RICHARD GLICK, COMMISSIONER, FEDERAL ENERGY 
                     REGULATORY COMMISSION

    Mr. Glick. Thank you, Chairman Murkowski and Ranking Member 
Cantwell and members of the Committee. Thank you for the 
opportunity to testify this morning. I'm honored to be 
appearing again before the Senate Energy and Natural Resources 
Committee.
    I've been a member of the Federal Energy Regulatory 
Commission for approximately six months. During this time, FERC 
has continued its efforts, initiated several years ago, to 
eliminate barriers in jurisdictional markets to new 
technologies. For example, in February the Commission voted 
unanimously to approve a final rule requiring regional 
transmission organizations and independent system operators to 
facilitate electric storage participation in wholesale electric 
markets, as has been mentioned by a couple of Commissioners 
already, by eliminating barriers to electric storage 
participation in RTO and ISO markets. The final rule will 
facilitate the development of a class of technologies such as 
batteries and pumped hydro that has the potential to play a 
leading role in the transition to the electricity system of the 
future.
    As the cost of electric storage continues to decline, these 
resources are poised to become a bigger part of the generation 
mix leading to the development of a more robust, reliable grid 
that can, among other things, help to accommodate the ever-
increasing demand for clean, renewable energy.
    The Notice of Proposed Rulemaking (NOPR) that led to the 
final rule on storage also proposed reforms to remove barriers 
to aggregated or distributed energy resources such as solar 
rooftop panels. Although the final storage rule recognized the 
importance of removing barriers to their participation in 
wholesale markets, the Commission concluded that it needed 
additional information before issuing a final rule addressing 
aggregated distributed resources.
    To gather this information the Commission conducted a two-
day technical conference in April that examined the potential 
participation of aggregated distributed resources in wholesale 
markets and the benefits that these resources can provide. I 
believe we now have the record needed to move forward with a 
final rule.
    Madam Chairman, a significant amount of emphasis has 
recently been placed on the resilience of the bulk power 
system. Many observers suggest that we need to avoid becoming 
reliant on any one source of electric generation. Diversity is 
a worthwhile goal and one that we are increasingly realizing. 
For example, on PJM the resource mix is more diverse than it 
ever has been with wind, solar, hydro, coal, oil, natural gas, 
nuclear, energy efficiency and demand response, all clearing in 
the most recent capacity auction.
    Renewable resources are responsible for much of this 
increased diversity as the increasing cost-effectiveness is 
causing utilities and their customers to choose renewable 
resources over more traditional technologies. The Southwest 
Power Pool set a new record this past March when it served 62 
percent of its load with wind energy at just one time. 
Similarly, solar energy met 50 percent of the demand in the 
California Independent System Operator in March, a new record 
for California.
    These new technologies also offer a variety of benefits 
beyond their contribution to the diversity of the resource mix 
and the reliability and resilience of the grid. They contribute 
to economic growth and significantly reduce greenhouse gas 
emissions. Large technology companies, automobile manufacturers 
and retail corporations, among others, are increasingly 
investing in renewable generation, both because it is cost-
effective and because their customers want products that are 
made with clean energy.
    I recognize that this sea change also creates uncertainty 
for the future of older technologies that may no longer be as 
cost-effective. The closure of uneconomic generation plants may 
lead to the loss of jobs and tax revenues in communities in 
which they are located. I am sympathetic to the plight of coal 
miners who have been disproportionately affected as the coal's 
share of the generation mix has declined. Many of these same 
considerations extend to individuals employed at recently, or 
soon to be, decommissioned nuclear power plants.
    We have a history in this country of helping those who, I'm 
sorry, through no fault of their own, have been adversely 
affected by technological and market change--but that is a 
responsibility of Congress and the state legislatures. It's not 
the role the Federal Power Act provides to the Commission.
    FERC has the responsibility to ensure the reliability and 
resilience of the grid, and we should take our duty seriously. 
But we cannot try to stop the natural evolution of this 
industry by claiming that there's a national security emergency 
unless there is evidence to suggest that an emergency actually 
exists.
    Finally, Madam Chairman, I want to associate myself with 
Commissioner Chatterjee's comments regarding pipeline 
cybersecurity. We need to strengthen the security of our 
natural gas pipelines, and Commissioner Chatterjee and I agree 
that Congress should consider whether pipelines should be 
subject to mandatory cyber and physical security standards and 
whether the TSA is the appropriate agency for overseeing 
pipeline security.
    Chairman Murkowski and Ranking Member Cantwell, thank you 
again for the opportunity to appear here today, and I look 
forward to answering your questions and the questions of your 
colleagues.
    [The prepared statement of Mr. Glick follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairman. Thank you, Commissioner. Thank you, each of 
you, for your comments this morning and, again, for your 
leadership on the Commission.
    I am just reflecting, really, on what has happened in the 
space of ten years since we had the full Federal Energy 
Regulatory Commission before this oversight Committee.
    Commissioner Powelson, you used the term ``a tectonic 
shift'' and you cite what we are seeing with the role of 
renewables, the shale revolution, the innovation that has led 
us to where we are with storage, and it really is remarkable 
where we have been since the last time we had the FERC before 
this Committee.
    I would like to begin my questions this morning with regard 
to the retirements controversy. We have been talking about that 
since 2010 as well, but you have several different things, the 
federal and state policy choices on the one hand and, then 
again, the innovation and simple economics to a certain 
perspective that have really advanced what we all would say is 
considerable change. This is a big change, tectonic, if you 
want to use that word.
    So the real question is what, if anything, should FERC do 
about this? What is the role? As I mentioned in my opening, I 
have been somewhat disappointed in the role of the FERC in 
years prior, your predecessors who, I felt, were not paying 
enough attention to the direction that we were headed and where 
we are now where we have a controversy out there. I think we 
recognize that each one of you has referenced it in different 
ways.
    As with many controversies with so much at stake in such a 
heavily regulated industry such as energy, the various 
interests are locked in. This is battle. This is mortal 
conflict for some.
    Now I have looked at much of the information that FERC has 
been involved with. You have done a lot in terms of collecting 
the information across many proceedings. That is important. But 
what we have not really seen is that decisive action, and in my 
view, we have this policy vacuum. So now you have the 
Department of Energy, you have the Administration weighing in.
    My question is, it seems that the retirements, in my view, 
have not reached the point where the quality of electric 
service has been visibly compromised. Are you confident that 
this situation will persist, and to try to get into more 
conversation, I would just ask if you agree, yes or no?
    Chairman.
    Mr. McIntyre. Thank you, Madam Chair. Agree yes or no with 
the idea----
    The Chairman. With the idea----
    Mr. McIntyre. ----that we have not been, we have not seen--
--
    The Chairman. ----the quality of service visibly 
compromised.
    Mr. McIntyre. I do, and I do not quarrel with the study you 
referenced in an earlier remark about how there is no immediate 
calamity or threat to our ongoing ability to have our bulk 
power system operate and satisfy the energy needs. However----
    The Chairman. Do the rest of you agree with that?
    Mr. McIntyre. ----when it comes to resilience I would say 
that we have to take a longer-term lens----
    The Chairman. Fair.
    Mr. McIntyre. ----and ask ourselves what should the future 
landscape of our generation resource mix look like and ensure 
that we get that right as well.
    The Chairman. Absolutely imperative.
    Would the rest of you agree that where we are right now, 
that the quality has not been visibly compromised?
    Ms. LaFleur. I agree, Senator. I think the history of 
electricity in this country for the last century has been one 
of continual change in resources and we're seeing just that 
from--when I first got into the industry, we were switching 
plants from oil to coal because of the oil embargos in the 
'70s. Now we're seeing yet another, as Chairman--Commissioner 
Powelson said, tectonic shift.
    I think reliability has been protected. I'm confident it 
can continue to be if we're vigilant about any localized issues 
or specific issues.
    The Chairman. I want to really focus on that part of it, is 
whether or not today's situation will continue? To use your 
point here, Mr. Chairman, we need to be able to, basically, 
forecast the future here a little bit.
    Mr. Chatterjee.
    Mr. Chatterjee. Madam Chairman, I actually wanted to quote 
directly from this DOE memo that has drawn so much attention 
that, ``It's understood that most outages to date have been 
caused by disruption and transmission interruptions triggered 
by weather, including lightning strikes and hurricanes.'' 
That's, you know, we shouldn't assume that that good fortune 
will continue.
    In my view no action is akin to driving a car without a 
seat belt. You may not get into an accident on your way home 
tonight, but that doesn't mean that you might not have an 
accident during rush hour tomorrow, which is why while I agree 
with the point that quality has not yet been affected to date, 
I think it is important that we and our partners throughout the 
Federal Government remain vigilant in ensuring the reliability 
of our bulk power system.
    The Chairman. Commissioner Powelson.
    Mr. Powelson. Well, I look at this and, going back to the 
point earlier, to Commissioner LaFleur's point and Chairman 
McIntyre, I mean, we are actively working with our RTOs. These 
RTOs put into a capacity market a reliability pricing model. We 
look at things like reserve margins. And now we're having 
conversations around cyber protections of those assets.
    So I agree with Commissioner Chatterjee. I mean, we have to 
continue to be vigilant in looking at these issues but at the 
end of the day--and I use two backdrop issues that seem to be 
driving this. One is a bankruptcy of an entity that I used to 
regulate, that I approved a merger of, and that is no 
different, by the way, than the bankruptcy that happened with 
the Energy Future Holdings entity in Texas. That company has 
gone through a bankruptcy, the plant is closed, but there was 
not one interruption of power or distribution service to 
customers.
    And I'm a little concerned about the narrative that's being 
put out there. I am not, you know, I come from the fifth or 
second largest coal production state. I understand that. We're 
going to need, as it's been said time and time again, we're 
going to need all these resources.
    But I don't think it's appropriate to put the FERC in the 
arena of creating moral hazards in these markets. These markets 
are working hyperefficiently right now. Certainly, there are 
things we need to look at around the edges around resiliency 
and I think, to Chairman McIntyre's credit, we're having that 
conversation. But a hard and fast mandate on these markets 
could really evaporate all the goodwill that consumers have 
seen and the environment has seen. To erode that would be a 
real step back for our U.S. bulk power system.
    The Chairman. Let me go to Commissioner Glick.
    Mr. Glick. I agree as well, Madam Chair.
    You know, the PJM is where, really, the ground zero for 
this whole issue really is created where people are arguing at 
PJM is the area where this is, where people are most affected 
by the issue of retirement, retirement of generators. PJM says 
there's actually not an emergency. And Exelon itself suggests 
that, the Chair of Exelon the other day--and Exelon actually 
would benefit from what the Department of Energy and the NSC is 
taking a look at--Exelon as well says there's not an emergency.
    I think the question is, we need to keep on being vigilant 
and monitoring the situation, but we also need to be wary of 
people using the situation or the potential situation as an 
excuse to achieve market changes they haven't been able to 
achieve otherwise.
    The Chairman. Well, I appreciate that.
    One of the things that I would like to follow on with this, 
and my time is up, but I have, kind of, taken the position that 
I certainly favor competition over regulation for getting the 
best results, and I think that over the past couple decades we 
have seen better results through price and through innovation.
    So I would certainly favor a market solution, but I would 
hope that we, you, the FERC, could consider any adjustments 
such as the thousands of pages of RTO tariffs I mentioned that 
could address the legitimate reliability or resilience problems 
that are continuing to mount. But again, how we can address 
this?
    It sounds like you all are in agreement here to a certain 
extent, but it does cause a question in terms of what is it 
that the FERC can actually do without, basically, the statutory 
or the legislating approach?
    Let me go to Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, and thanks for 
leading off and starting that discussion because I find this 
whole thing like head-scratching in so many different ways.
    I mean the notion that, first of all from the Northwest 
perspective, what has driven affordable electricity has driven 
our economy over and over again. So I am very interested in 
affordable electricity, bottom line. The notion that someone 
would supplant the market of delivering affordable electricity 
with the most available unit of cost-effective energy and 
supplant it with an order that would say, ``buy something more 
expensive,'' is disrupting the whole market.
    I don't know why we would go back to that. I mean, is the 
Administration for reregulating electricity? Is that what that 
position is? Because I don't get it.
    The Power Act definitely is there for shortage and shortage 
only, which you have all just said is not there, and the 
Defense Act says the same, shortage, which is not there.
    We had this debate in Committee once where we were 
empathetic on our side to the fact that okay, first of all, we 
created this big policy here in the United States on production 
of natural gas. We claimed it as a big success, and then it did 
compete with sources of more expensive energy. I think we voted 
to say that some of those Midwest coal plants that were getting 
competed with on rail for supply, we were a little more 
empathetic. But that is a different story than just out and out 
charging consumers more just because we want to preference one 
over the other.
    I just find this whole thing almost mind-boggling in the 
policy element that somebody would be interfering with FERC's 
standard practice of giving us just and reasonable, lowest cost 
electricity, at least in those organized markets.
    Commissioner Powelson, you used to regulate rates for 
consumers, and last year the PJM market monitor said the DOE's 
proposal for FERC would raise the wholesale rate by 84 percent. 
So you rejected that proposal. Do you think this latest 
proposal is any different?
    Mr. Powelson. I haven't looked at the analytics. I know 
that the market monitor has been very vigilant in looking at 
this and outreaching to state commissions and consumer 
advocates, and I've also met with those groups.
    I do think, Senator, it's critically important to your 
point. I mean, here we are today at PJM. In 2008 we were in a 
$14.00 gas market and here we are today in a $2.00 and, you 
know, Henry Hub, or we'll call it Pennsylvania Lady Hub, in a 
$2.26 market with ample supply and wholesale power prices have 
dropped 56 percent. In fact, in my home state, retail customers 
are paying less for power today, prior to restructuring, I 
mean, that's--and customers in Pennsylvania and in your home 
state, I follow what the Commission approved with Microsoft 
looking for a sustainable energy product. The market will 
deliver those outcomes. And I think it's critically important 
for us and, again, I commend our Chairman and my colleagues' 
work in a bipartisan manner, always remain diligent on 
reliability, look at the issue of resiliency, but the 
technology landscape, as I said in my testimony, has changed to 
just things we couldn't fathom ten years ago.
    It's been a great thing for organized markets. We've 
learned a lot of lessons, as you know. There was a company in 
Houston that bastardized that construct. I didn't want to go 
there, but today, it has been a phenomenal success story. In 
fact, I will say this to you, in a recent presentation the 
restructuring of these markets is arguably one of the largest 
wealth transfers to take place in our nation's history, and I 
think it's something that we should not retreat on.
    Senator Cantwell. Well, I appreciate you mentioning that 
situation because I do think, in the time of Enron, people 
tried to get FERC to use all sorts of other standards to look 
at that problem. And I think that FERC realized that was, that 
your just-and-reasonable rate clause was the focus and should 
always be the focus of FERC.
    I don't even agree on the security side. I am very well 
aware of where our cybersecurity attacks are coming from, and 
some of these have been into our plant operating systems. And 
so, it doesn't matter what the plant operating source is, the 
issue is that cybersecurity could disrupt any type.
    Our goal here is to try to build better resiliency, backups 
and information into the system so that we can better track 
that kind of attack, no matter what the source is. I don't even 
agree that somehow these other sources could be more reliable 
or secure. I don't even agree with that.
    So anyway, we hope the Commission will keep playing this 
role. We are reaping the benefits of what we all pushed here, 
which was to have more natural gas and now it is here. I think 
we have to let the market continue to play its role.
    The Chairman. Thank you, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you, Chairman Murkowski.
    Mr. Chatterjee, on April 26th Senator Risch and I 
introduced the Update PURPA Act. The legislation makes several 
commonsense reforms to bring the 40-year-old Public Utility 
Regulatory Policy Act in line with what modern energy markets 
are doing to protect consumers from what I believe are 
unnecessary costs.
    Back in '78 when that law was passed, things were different 
then. We now have open access to electric transmission. We have 
competitive wholesale energy markets. We have abundant 
renewable energy. So I believe that the regulations need to be 
updated to reflect these modern realities and ensure electric 
utility customers are not footing the bill for power that they 
really do not need and do not want to pay for.
    I am encouraged by the Commission's announcement on May 
17th that you are going to be reviewing the PURPA regulations. 
Would you please give us some additional detail on the scope 
and the timing of the review and any of the specific rules you 
believe need to be updated?
    Mr. Chatterjee. Thank you, Senator.
    And again, I commend you for introducing your legislation. 
I have said repeatedly, I think major changes to PURPA need to 
be statutory and come from this body, but that said, the time 
has since passed. We need to take a look at our own regulations 
and see what we can do.
    The Chairman, in his introductory remarks, indicated that 
we already have a robust record to work from in this area due 
to the work of Commissioner LaFleur and others.
    To me, the one-mile rule and the 20-megawatt rule are 
probably the two parts of our regulations that have gotten the 
most attention, but I don't think that we should just limit our 
focus to those. I support a broad review of all of our existing 
PURPA regulations to see what's working, what's not working and 
what needs to be updated to account for our modern energy 
landscape. Commissioner Powelson has been aggressive in pushing 
for a fast timetable, and I think with the record that the 
Chairman referenced, I'm hopeful that we can do that in short 
order.
    Senator Barrasso. Since you mentioned Commissioner 
Powelson, anything you would like to add, Commissioner?
    Mr. Powelson. Well, Senator, I want to commend you and 
Senator Risch for your leadership on this issue.
    Look, anything that protects electricity customers from 
having to pay for unnecessary costs is something we should all 
get behind. And that's why I join--not to prejudge outcomes 
here but, again, I want to applaud the leadership from our 
Chairman on this and also as the former president of the 
National Association of Regulatory Utility Commissioners, 
NARUC, has presented testimony on this issue and your 
legislation, in my view, is, I think it's long overdue.
    To your point, the energy landscape since 1978 has changed 
and I can tell you all of my colleagues, we've met with some of 
these new technology providers. I'll let them go nameless here. 
But PURPA is not recognizing new technologies like storage, 
like oxidized fuel cells, and it's going to be a problem going 
forward.
    So I'm for, as Commissioner Chatterjee mentioned, the one-
mile rule reform if we can get our hands around that, the QF 
reform, and then lowering that 20-megawatt threshold would be 
something that, I think, would be good for markets.
    But to your point of protecting consumers, now more than 
ever in this low energy cost environment that we're in, we've 
got to get your legislation moving.
    Senator Barrasso. I appreciate the comments.
    Chairman McIntyre, a different question. During the cold 
snap this past winter, data from the Department of Energy 
showed that the coldest parts of the country were heavily 
reliant on baseload coal and nuclear generation sources when 
they needed power the most. To me, this shows the value of 
fuel-secure resources to a reliable and diverse generation 
fleet. I would just ask if you agree that maintaining the role 
of coal and nuclear power in our generation fleet is critical 
for grid reliability and resilience of the grid?
    Mr. McIntyre. Thank you, Senator, for the question.
    I have long been a proponent of an all-of-the-above 
strategy in satisfying our nation's energy needs, and coal is 
ensured to remain a part of that mix.
    Senator Barrasso. Commissioner Chatterjee, do you have 
anything specific you would like to add to that?
    Mr. Chatterjee. Yes, Senator.
    Again, I think as to the line of questioning that the 
Chairwoman had earlier, you know, we need to understand what 
these rapid transitions in our generation mix mean from a fuel 
security standpoint, from a fuel diversity standpoint. And I 
think we need to carefully examine the record.
    We did that in evaluating the DOE NOPR last fall. And 
despite initial sympathy that I had for what Secretary Perry 
was proposing, having spent time up here with folks like 
yourself, talking to constituencies who have been hurt by these 
retirements, I have a new job now and it's evidentiary-based. 
And the evidence wasn't there to support the action that 
Secretary Perry had proposed which is why we commenced our new 
docket. And I'm hopeful that working with my colleagues to 
remain vigilant that we will be able to ensure the reliability 
and resilience of the grid.
    Senator Barrasso. Thank you. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Commissioner Powelson, I appreciated your written testimony 
with regard to the President's recent directive to the 
Department of Energy. I believe you wrote that it ``could 
potentially blow up the markets and result in significant rate 
increases without any corresponding reliability, resilience or 
cybersecurity benefits.'' Talk to us a little bit more about 
what such an unprecedented command and control approach to the 
existing wholesale competitive markets would mean.
    Mr. Powelson. Thank you, Senator, for the question.
    Let me start with the conversation that we mentioned 
earlier where these markets value reliability through a 
reliability pricing model. And those markets, basically, set up 
a mechanism where you have orderly entry and exit of resources.
    If I had a pie chart today showing the PJM marketplace to 
Commissioner Glick's point--it seems like everything is focused 
on PJM and there are other parts of the country that we 
regulate. But if we're going to hone in on the PJM energy mix, 
it's probably the most diverse it's been since the grid was 
formed in the dispatch of 2301 Market Street in Philadelphia.
    Senator Heinrich. Right.
    Mr. Powelson. And I think the issue for us, again, is--and 
Commissioner Chatterjee and the Chairman and my other 
colleagues, we're looking at this in terms of you hear it from 
CEOs of companies. Do we want to have an energy dispatch that 
is reliant on one energy source? No, we don't.
    Senator Heinrich. And do we? Are we reliant on one energy 
source?
    Mr. Powelson. And currently, in certain marketplaces, we 
don't. But let me take you to the New England states, after the 
bomb cyclone. I mean, New England governors, Republicans and 
Democrats alike, are looking to get new gas capacity into that 
market. There is a problem in New England. To the credit of the 
RTO or the independent system operator, they've done a 2025 
lookout of that, a bunch of scenarios that are real time that 
are going to have a dramatic impact on that bulk power system 
dispatch. And then that's a conversation we need to continue to 
have.
    But to your question, I think, you know, these markets are 
driving a value proposition of creating diversity in the fleet. 
And yes, I can tell you unequivocally, there will be profiles 
of coal plants and nuclear plants that will clear in these 
markets. We know that. There will be certain assets, coal and 
nuclear, that won't clear in these markets. That's the market 
delivering on what it's promised consumers----
    Senator Heinrich. Let me ask you all broadly. Do any of you 
believe that in the wholesale power markets we are facing an 
actual national security emergency at the moment?
    Ms. LaFleur. I do not, Senator. I think the markets are 
reliable.
    Senator Heinrich. Anyone want to answer that with a yes?
    [No response.]
    Let's move on then.
    Chairman McIntyre, I want to thank you for Order 841, and 
all of you for the work that went into that order. Storage is 
obviously remaking our grid in many different ways, and the 
logical follow-on would be a similar order with regard to 
aggregated distributed energy resources. I know you all have 
been building a record on that. How do you feel about that 
process and where it is going?
    Mr. McIntyre. Thank you, Senator.
    Yes, I think that our order directing the RTOs and ISOs to 
eliminate any undue barriers to the participation of storage in 
our energy markets is a very important step forward and is in 
line, I think, with, although my colleagues, of course, speak 
for themselves, I think it's very much in line with the 
dedication we share to embracing new technologies and seeing 
that they make their way to our markets in a way that yields 
benefits to consumers.
    And I agree with you that it's now appropriate to focus our 
attention on DERs, as we call them, distributed energy 
resources, and see whether there are steps that we can take to 
do the exact same thing for DERs as we did for storage.
    Senator Heinrich. Do you believe that you are building an 
adequate technical record to support moving forward on that 
kind of an order?
    Mr. McIntyre. I do.
    The submittals of comments have been a robust process, and 
we will work through that record and make the decisions that we 
think are appropriate and helpful.
    Senator Heinrich. Great.
    My time is almost up so I am going to yield back the 
balance, Madam Chair.
    The Chairman. Thank you, Senator Heinrich.
    Senator Capito.
    Senator Capito. Thank you, Madam Chair.
    I want to thank all of you, as Commissioners, not only is 
it great to see everybody here together but it is great to have 
a full Commission as well.
    Commissioner Chatterjee, I want to talk a little bit about 
the DOE draft. Obviously, I represent a coal state and a 
natural gas state, but I feel that the challenge that has been 
facing our coal baseload generation is one of economics. Years 
of subsidies of renewable energy and regulations designed to 
hammer coal production has led to a failure which has basically 
been punishing these energy sources. The natural gas 
revolution's impact has laid bare and accelerated the effect of 
these failures. But the damage done is like scar tissue in our 
states. You know this being a Kentuckian and certainly Senator 
Manchin and I can give you time and many, many instances 
throughout our states where it is difficult. It has been very 
difficult. Shuttered coal plants, mines and jobs that will not 
be easily replaced.
    The renewable subsidies have been renewed and I support 
free markets and an all-of-the-above policy, but due to the 
nature of our utilities, I believe that our electric markets 
are inherently artificial constructs and that the previous 
interventions on behalf of particular energy resources merit 
intervention now to try to restore some balance.
    We are also facing challenges with natural gas, but it is 
mostly related to the infrastructure. We should be working to 
build out additional pipelines to benefit our producers, reduce 
our energy costs and build redundancy into our natural gas and 
electric generation systems.
    Permitting a pipeline takes too long, is subject to too 
much uncertainty and now states are adding on to the 
complexities, leaving regions of the country without sufficient 
access to affordable, domestic energy. When we see this in the 
DOE memo, it cites New England and the Southwest as those 
facing the most serious challenges to regional grids.
    In this very Committee, we had testimony that during the 
bomb cyclone, the ISO New England, because of their lack of 
access to natural gas coming from the Marcellus shale that we 
have talked about today, they imported natural gas for the 
Boston area from Russia on LNG. I mean, that sort of raised the 
hair on the back of my neck, quite frankly. And especially when 
I live in an area such as Pennsylvania where there is great 
abundance of natural gas and would greatly benefit those in New 
England.
    So, to get to the question. Can you describe the importance 
of maintaining baseload generation? You talked about what is 
happening today but you also talked about where we need to be 
looking into the future. Could you, kind of, flush that out for 
me a little bit, please?
    Mr. Chatterjee. Yes, absolutely. Thank you for the 
question.
    And you are right that we need to take seriously these 
issues and look at the impact in communities. I appreciated 
Commissioner Glick's opening remarks when he addressed this.
    Senator Capito. Right. Thank you.
    Mr. Chatterjee. I recall a few years ago going to Eastern 
Kentucky with you and we saw that when these plants close down 
and there are no alternative avenues for alternative 
employment, you know, entire communities are threatened by this 
and we have to be sensitive to that.
    Now my role as a market regulator is to ensure the 
reliability of the grid, but it is entirely appropriate for 
you, in your leadership, to fight on behalf of these 
communities. And that's why we have the resilience proceeding 
that we have currently ongoing.
    You know, there's been a lot of talk about this DOE memo 
and it's a leaked memo. We don't know what the Administration 
intends to do with it. But I think people are also too quickly 
dismissing it. I've read the memo. There are a number of points 
in the memo that are thoroughly well-cited and researched. And 
I think we can have disagreements about what the remedy may be, 
but I think they raise a real issue, and you speak to it, that 
we need to look at it.
    And I think pipeline infrastructure, gas infrastructure, 
has to be a part of that conversation. The reason that we are 
having this reliability situation, potential resilience 
situation in New England, is due to the lack of availability of 
that adequate infrastructure. And so, you raise several 
tremendous points.
    Senator Capito. Thank you.
    Let me ask you this, in terms of--and you did mention this 
is just a leaked memo and it is from the DOE--but what, and I 
can, kind of, throw this open to anybody, I mean everybody sort 
of alluded to it, but what role would FERC play in this 
process, or should FERC play any role in the process?
    I will start with you, Commissioner Chatterjee, and then if 
I have some time left we can go through.
    Mr. Chatterjee. I think from my vantage point it's unclear 
what role would there be because we need some more details 
about what implementation would look like.
    The one area, and the Chairman has spoken to this, where I 
could foresee a role, if in fact there were disagreements 
between, you know, the RTO and the ISO and a generator on 
rates, you know, that that would, obviously, fall into our 
wheelhouse.
    Senator Capito. Alright, I think I have run out of time. 
Thank you.
    The Chairman. Thank you, Senator.
    Senator Wyden.
    Senator Wyden. Thank you very much, Ms. Chairman.
    I think I am going to ask this question of you, Mr. Glick. 
It seems to me the President and Secretary Perry are doubling 
down on this commonsense defined plan to blow up the energy 
markets by issuing an emergency order to subsidize 
uncompetitive energy facilities, and this strikes me as a real 
abuse of power.
    But what I want to get into with you, specifically, is what 
this is going to mean for consumers' bills. I mean, what is 
this going to mean for households across America? Because when 
you set aside all the lingo that we use around here, the Chair 
and I used to talk about it when I was Chairman of this 
Committee, half the time you can't even figure out what 
language is being discussed here. But I can tell you people in 
homes, they understand what it means for their bills.
    Now, we looked at one analysis. I gather they are pretty 
widely respected. The PJM people, I guess, also are connected 
to the market monitor, and they determined that the average 
family would pay about $250 more per year and would not be 
getting anything. Do you generally share that view?
    Mr. Glick. Well, Senator, thanks for the question.
    The numbers I've seen suggest that, there's been a wide 
range, but suggests that the proposal, if it's implemented, the 
proposal in the memo could actually increase rates nationwide 
up to $65 billion. Now that may be on the high mark, but still 
that's going to be pretty significant. What the memo 
essentially is calling for, again----
    Senator Wyden. Well, let me stop you there, because I want 
to hear it.
    So, if anything, your take right now is that amount could 
be low, what I just asked about.
    Mr. Glick. No, no. I think that's an upper boundary----
    Senator Wyden. Okay, so give us the range, the ballpark for 
the consumer, what you think is most likely?
    Mr. Glick. Well, again, I haven't seen the actual----
    Senator Wyden. Based on what we know, because we've got 
this independent watchdog which is widely respected. So, go 
ahead.
    Mr. Glick. Sure.
    So basically what the memo is requiring is, if the memo is 
implemented, would require, essentially, that instead of lower-
cost energy being dispatched, they dispatch higher-cost energy. 
So it's clearly going to raise rates. The question is--how 
much? I've seen estimates between $30 billion and $65 billion 
in terms of what the impact might be. It's something I saw 
yesterday. But we could provide a greater example for the 
record.
    I want to, Senator, if I could get back to your point 
because, basically, you made the right point which is you have 
to actually create a record. You have to have evidence in the 
record.
    When I was at the Department of Energy during the Western 
Energy Crisis during 1999 and 2000, we actually invoked both 
statutes that the memo suggests invoking. One of them is the 
202C of the Federal Power Act. The other one is the Defense 
Production Act. In both cases, there was clearly an emergency 
out West, as you will recall. Companies weren't selling power 
into California because the California PX and other purchaser 
power weren't creditworthy.
    And so, we created a record. We had the record there truly 
was an emergency. We issued several orders, primarily using the 
Federal Power Act to require generators to sell power into 
California, and once requiring a natural gas provider to sell 
natural gas into California because there was an emergency 
regarding supplying a defense facility up there. But again, 
there was evidence in the record.
    In this case, I think what we're trying to do is get to the 
solution before we actually build a record suggesting that 
there's actually an emergency.
    Senator Wyden. I think that is way too logical----
    [Laughter.]
    ----and clearly that is not what is being done.
    But I am just going to close with this. I am very anxious 
to work with my colleagues--Senator Manchin, my friend, is 
here. When I was Chair I went to West Virginia, and there are 
plenty of things we can work together on.
    What I am troubled about, because I just had town meetings 
at home. Nobody said, hey Ron, we have an emergency here that 
requires that you go out and raise our power bills. And that 
is, I think, what people are going to take away from this.
    We are going to continue our dialogue and work with 
colleagues on both sides, and I especially appreciate that last 
point that you made that this is really jumping the gun here, 
that there really aren't the facts on the record that would 
justify treating this as an emergency.
    If you are going to raise people's power bills, which 
Americans understand if you are in a national emergency and the 
country's well-being is at stake. Everybody, whether they are 
in West Virginia or Oregon, we step up because we are for the 
Red, White and Blue. But I sure don't see any evidence of an 
emergency here that justifies raising people's power bills 
along the lines of what you have described.
    I thank you, and thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair.
    Thanks to the Commissioners for being here. It is good to 
see all of you. Chairman, welcome.
    This issue of power bills and cost, I think, is an 
important one.
    Mr. Chatterjee, real quick, the tax cuts that passed this 
Congress this past year--we have seen decreases in utility 
bills as a result. Is that something you have seen as well?
    Mr. Chatterjee. Yes, absolutely.
    I think we wanted to ensure that consumers and not 
companies be the beneficiaries of those tax cuts. And I think 
what we have seen is, in terms of those rate reductions that 
are occurring, that those are being returned to customers.
    Senator Gardner. I agree. I am concerned with the rising 
power bills. What would happen if the tax cuts were to be 
reversed?
    Mr. Chatterjee. I mean, in terms of what actions we would 
have to take, I'm not entirely sure, but you would certainly 
see----
    Senator Gardner. But I mean, would these cuts in power 
bills that have occurred across----
    Mr. Chatterjee. You would certainly, if the taxes went up, 
one would foresee, you know, those being reflected in rates.
    Senator Gardner. So people who are concerned about power 
bills rising ought to be concerned about raising taxes back to 
what they were because we would see those cuts in utility bills 
go away.
    Mr. Chatterjee. I would be concerned, yes.
    Senator Gardner. Yes, thank you.
    Chairman McIntyre, the tremendous natural gas supply in the 
U.S. Rocky Mountains, Utah, Wyoming, Colorado--we have seen 
remarkable opportunities there.
    The U.S. Geological Survey recently determined that 
recoverable natural gas supplies in the Piceance Basin is 40 
times larger than initially thought. It is absolutely 
incredible. But with U.S. market demand being largely satisfied 
by supply from other natural gas-producing regions, the only 
way for U.S. Rocky Mountain gas producers to contribute to U.S. 
energy dominance, or one of the only ways, is to export that 
natural gas to our allies, particularly the Asian markets.
    The fact is our allies are seeking U.S. opportunities for 
energy. I have met with leaders in Taiwan, in Japan, in South 
Korea, who are all looking for ways to do business with U.S. 
energy producers to diversify their natural gas supplies within 
the United States. And that means they have to have an LNG 
export terminal on the U.S. West Coast.
    It is a matter of economic security. It is a matter of 
national security. It is a great soft power of diplomacy that 
we could utilize. I am very concerned about staff resources 
though at FERC in that there could be a negative effect on the 
permitting timelines for these types of projects to satisfy the 
demand from our allies.
    What can the Commission do to help accelerate staffing to 
ensure that the agency can process these permits in a timely 
manner when it comes to LNG export facilities?
    Mr. McIntyre. Thank you for the question, Senator.
    And yes, this is all a part of a tremendous American 
success story, the enormous increase in natural gas production, 
largely as a result of technological advancements. And yes, 
that production now is seeking markets and those are global 
markets, increasingly, which to us here in the United States 
means we need to get them to LNG terminals and out.
    There's a certain amount of this issue that's governed by 
simple metrics. If we turn the clock back ten years to 2008, 
there is a grand total of 4 LNG terminal applications pending 
before the FERC. Today there are 14 and they are larger and 
they are more complex and they are more expensive. And as you 
can imagine, the review process is not a simple one. And, of 
course, our legal processes allow for ample stakeholder input 
into thoughts on whether the approval should be granted or not. 
And in addition to those 14 applications, there are six 
processes now of construction underway which themselves trigger 
certain needs for FERC review, monitoring inspections and so 
on.
    We are actively looking for creative new ways to embrace 
and attack this increased workload. For example, we are using--
for non-proprietary aspects of the projects and designs--we are 
using third-party contractors for some of that work. We're 
actively seeking to hire, so send us good people.
    [Laughter.]
    And we will hire them in a heartbeat.
    Senator Gardner. Right.
    Mr. McIntyre. And beyond that we also are looking for 
internal processes that we can streamline.
    Senator Gardner. Great.
    I know with a number of these LNG export applications 
pending, it is important that we prioritize staff. I hope you 
are making the appropriate staff prioritization with the 
limited staff resources available. I know that you are going to 
have export applications with decisions on precedence, which 
ones take priority.
    A quick question before I run out of time here. The 
President laid out a two-year deadline for NEPA reviews last 
year. FERC has traditionally averaged 18 to 24 months for LNG 
projects. How many LNG export projects do you expect to get 
done in this two-year timeframe that the President has ordered, 
and could you talk a little bit more about that, delivering on 
that promise?
    Mr. McIntyre. Sure.
    You referred to the One Federal Decision process and the 
Memorandum of Understanding we have executed under that 
process. It is a two-year, government-wide average approval 
process target and I expect--I can, of course, only speak from 
my role at FERC. There are a number of other entities involved, 
federally. And I expect that, certainly, a majority of the 
projects that are covered by that goal would be something that 
we would be able to address in a two-year timeframe. But again, 
that there's only so much we can do at FERC. We can't control 
what is done by the Forest Service and so on, or the other 
federal entities.
    Senator Gardner. Mr. Chairman, thank you.
    Than you, Madam Chair.
    We may have some questions for the record. Thank you.
    The Chairman. Thank you, Senator.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chair.
    Mr. Powelson, I would like first to, I think, just make a 
little correction. I think you said Pennsylvania was number two 
in coal production.
    Mr. Powelson. I did, yes.
    Senator Manchin. Yes, you are number three. You are about 
35 million tons behind us.
    [Laughter.]
    Mr. Powelson. I stand corrected, Senator.
    Senator Manchin. Thank you, sir.
    With that said, Pennsylvania has added tremendously over 
the years because they were a tremendous coal-producing state. 
And we appreciate all the energy produced for us.
    I would like to go through a few things of what is going 
on. Since 2010, 610 coal-powered plants in 43 states have 
retired. That is almost 35 percent of the U.S. coal fleet. 
Sixty-nine thousand megawatts of coal-fired generating capacity 
has been retired. In 2020, an additional 21,000 megawatts are 
expected to retire. That is 90,000 megawatts by the end of 
2020. About 456 plants contributing 76,000 megawatts are 
attributed to the EPA regulation.
    During the bomb cyclone, the Department of Energy's own 
National Energy Technology Lab, NETL, found that at the height 
of the peak of demand on January 5th, 2018, had coal been 
removed, a 9- to 18-gigawatt shortage would have developed. In 
early January a winter storm, popularly known as bomb cyclone, 
combined with unusually cold weather and extremely low 
temperatures, led to an unprecedented level of natural gas 
demand as heating needs rose. As a result, in just a few days, 
gas prices near New York City went from less than $3.00 per 
million BTU to over $140 per million BTU, and similar pricing 
surges were experienced all along the East Coast.
    Everyone has been talking about cost. I represent a state 
that has an 18 percent poverty level. We rank 46th in the 
nation. I don't know what all has happened and how they have 
talked and how you all have evaluated this rise if the 
President, which I support very robustly, uses the Defense 
Production Act in 202(c). I will say Mr. McIntyre, do you 
believe that is within his authority to do so?
    Mr. McIntyre. Within the authority of the Secretary?
    Senator Manchin. The President.
    Mr. McIntyre. Oh, the President.
    Well, under the role----
    Senator Manchin. Secretary Perry, right, he basically is 
directing Secretary Perry.
    Mr. McIntyre. Yes, sir.
    Under the roles assigned to the Secretary by Congress it is 
up to the Secretary of Energy to determine whether the 
conditions exist for the invocation of the directives under 
either.
    Senator Manchin. Do you believe that the Administration has 
the authority to take measures to preserve the power plants 
critical for national security?
    Mr. McIntyre. There's no question that the Secretary does 
and since the Secretary reports to the President, it stands to 
reason that that is so.
    Senator Manchin. Thank you, sir. I know that has been your 
statement before, and I appreciate that.
    Let me tell you what has happened to states like West 
Virginia. In 2009, the average price per kilowatt-hour was 7.84 
cents; 2017, 11.93 cents, 12 cents. In 2009, someone living in 
the State of West Virginia with an 18 percent poverty level 
that we have, $88.16 was our average monthly bill. Now it is 
$126.10.
    I do not know how you all think that you have kept these 
prices down and you are helping these poor people get through 
difficult times. You do not want to raise their prices anymore. 
How can you justify what you have already done to them? I 
cannot explain that.
    It comes as no surprise because of what I believe about 
what we have and what we need. So if someone, one of you all, 
could tell me how you define baseload power. What do you 
consider to be baseload? I thought it was always 24/7, 
uninterruptible power. No way it could be interrupted 24/7. You 
tell me what else does that besides nukes and coal? And this is 
only for 24 months, correct? I mean, the order by Perry, is 24 
months? You are acting like it is going to be forever. It is 
only 24 months and it expires and it has to be reauthorized. Is 
that correct?
    Mr. McIntyre. Yeah, there is a--yes, Senator, there's a 
process for it to reauthorize.
    Senator Manchin. So we are talking 24 months.
    Can anyone tell me how you all define baseload power?
    Mr. Glick, do you want to start?
    Mr. Glick. Sure, baseload power is generally, essentially, 
power plants that are capable of operating all the time unless 
they're down for repair or something like that. Certainly, coal 
and nuclear----
    Senator Manchin. Is there anything else besides coal and 
nuke that you consider to be baseload?
    Mr. Glick. Some hydro projects are also considered 
baseload.
    Senator Manchin. Okay.
    Mr. Powelson. Senator, good morning.
    And I applaud you for your leadership, not only when you 
were Governor of West Virginia, but on this issue.
    My definition of baseload would add on top of hydro, 
natural gas. And the reason I say that is your state, my state, 
Ohio, Texas, Colorado, if you looked at every new power plant 
built in this country during the last five years or talk to any 
utility CEO from the EEI membership or merchant generator, we 
are building a lot of gas plants. And these are not small gas 
plants.
    Senator Manchin. Well, we are tickled to death to have the 
gas capacity we have which is tremendous in West Virginia, 
Pennsylvania and Ohio, but it can be interruptible.
    Mr. Powelson. But so are those other sources. And let me 
pick up on that.
    Senator Manchin. Sure.
    Mr. Powelson. During the polar vortex I was Chairman of the 
Pennsylvania Public Utility Commission. I remember Governor 
Corbett calling me, saying hey, I'm noticing we're having 
something like a 22 percent forced outage rate. What's going 
on?
    We had nuclear plants. We had coal pits that were frozen. 
We had interruptible gas lines. We had industrial customers 
that didn't firm up their gas contracts. And so, a market 
response to that which has been, and it happened in New 
England, is putting market roles that drove an outcome now. 
It's called capacity performance.
    So you better make sure during a heat spell or a cold spell 
that your assets are going to perform or you're going to 
receive penalties by the grid operator. And I think that's a 
market construct to your pricing point. I mean, we're seeing 
historically low prices in PJM. I mean----
    Senator Manchin. But they are not reflected in the prices 
in West Virginia.
    Mr. Powelson. Well, let me wear my economic development 
hat. Okay?
    An ethylene cracker coming to Beaver County, Pennsylvania, 
and you're in the epicenter of that, the West Virginia market 
with natural gas liquids. These natural gas liquids were 
predominantly dominated by two states, Texas and Louisiana, and 
now comes the ability--we could argue a little bit about 
pricing, but Pennsylvania and West Virginia were not attractive 
places to build these facilities. These are $5 billion 
investments that are being made right now, and I think it 
speaks to the earlier point by the Chairman. This is, the 
changes that are taking place in----
    Senator Manchin. We are all for the changes taking place.
    My time is, I know I am over time. My time is running out.
    But we are all for these changes from the standpoint of an 
all-in energy policy, but to just throw two under the bus is 
basically taking us to where we have--for the next 24 months--
the need for reliable power.
    It says right here, I mean, in fact, the Department of 
Energy's own NETL, the NETL labs, are saying at the height of 
the peak of demand, January 5th, 2018, had coal been removed, a 
9- to 18-gigawatt shortfall would have developed. They are 
saying right now it is still--we are not in that fully matured 
state to where everything is going to take the place of what we 
have been doing with coal and nuclear.
    We are seeing plants that are, basically, the most 
efficient as far as climate-efficient plants go, with all of 
the pollution controls. We are talking about scrubbers, low NOx 
boilers, baghouse of mercury--these are the best of what we 
have. These are coming off because of market conditions right 
now, and we are trying to keep those online for a 24-month 
period to stabilize the system and let the rest of the system 
mature.
    That is all we have asked for, and everybody is coming out 
of the woodwork thinking they are going to jack their prices 
up. West Virginia has been hit pretty hard.
    The Chairman. Senator Manchin, you will have an opportunity 
for a second round.
    Senator Manchin. Yes.
    The Chairman. I know that you would like to continue the 
engagement, and it is good.
    Let's move on to Senator Portman, get through this first 
round and we will come back to you.
    Senator Portman. It is an important dialogue, and I 
appreciate my colleague from West Virginia raising it.
    I have a really important issue I need to raise with you 
guys, too, and that is on the permitting front.
    As you know, back in the day during the Highway bill, we 
got into Title 41 of the FAST Act, legislation I introduced 
with Senator Claire McCaskill and it is called the Federal 
Permitting Improvement Act. It creates this Federal Permitting 
Improvement Steering Council. And we are all talking about 
permitting now on both sides of the aisle, how to have that 
infrastructure now or go further.
    Energy is a huge part of these projects. In fact, I got 
involved in this issue initially because a group came to me, 
AMP in Ohio, and they were working on a hydro plant on the Ohio 
River. I think at that point it had taken six years to try to 
get the permits and there were so many federal agencies 
involved--the right hand not knowing what the left hand was 
doing. Capital is not that patient, and they were losing 
capital. They came to me and said, you know, is there any way 
you can, on these big energy projects like this, help us to 
actually get a decision, get the federal agencies to coordinate 
and have someone be held accountable?
    So we went to work on it and in the end we got the AFL-CIO 
Building Trades Council, as well as some environmental groups, 
as well as the business community on board. Again, I think it 
is fair to say this has become something that a lot of us are 
acutely interested in.
    One thing it did, and this should not be revolutionary but 
it is, was it set project deadlines and it made it a 
requirement that we actually, publicly, allow the parties and 
the public to see through a dashboard, to be able to see what 
the deadlines were.
    So, as you know, FERC is responsible for taking a leading 
role in many of these large, complex infrastructure projects, 
including the non-federal hydropower projects, interstate and 
natural gas pipelines, storage facilities, liquified natural 
gas terminals and other huge projects. You are the lead agency 
on a lot of the in-progress and completed FAST-41 projects, in 
fact, we appreciate that. A number are listed. You can see them 
online at permits
.performance.gov if anybody watching is interested. There is an 
online dashboard for that. You also recently signed this 
Memorandum of Understanding implementing the One Federal 
Decision under Executive Order 13807 requiring federal agencies 
to coordinate their NEPA reviews, which I commend you for. I 
think that was a good decision. I know Senator Gardner raised 
that.
    Here is my question for you and maybe, Chairman McIntyre, 
you are the right person to answer this question. When we wrote 
FAST-41 we always intended that every single permitting agency 
would be required to put its schedule for permitting each 
project on the dashboard. Again, it is a major part of the 
legislation. Some people, by the way, on my side of the aisle 
wanted to have firmer deadlines in place and the other side of 
the aisle did not want to have any deadlines and this was the 
compromise, frankly. At least let's put these deadlines out 
there so the public can see and people know what is going on. 
It is the only way the bill works, in my view, and it requires 
agencies to work together to have a complete deadline and 
timeline and to have one agency be accountable is also 
important.
    My understanding is that FERC has not been willing to post 
its schedule. Last year we had a hearing of the Permanent 
Subcommittee on Investigation which I chair and your staff 
members told me you could not post your timelines because of 
internal regulations and they said you have to talk to the 
Commissioners about that.
    So here you are, and I'm talking to you. Statutes trump, 
not to overuse that word, but statutes trump regulations and 
the statute is clear. I guess my question to you is, does FERC 
plan to start posting its timelines publicly? If not, why not? 
And if not, doesn't your lack of participation defeat the 
purpose of the statute and the very things that, I think, on a 
bipartisan basis, we are all looking to see here which is that 
these projects get up and going more quickly?
    Mr. McIntyre. Thank you for the question, Senator.
    I want to begin by thanking you for raising the critical 
point of the permitting schedules because we understand that 
and much of the work that we're doing now to improve our own 
internal processes is with an eye toward making our permitting 
approvals in the areas you cited, LNG terminals, natural gas 
pipelines and hydro facilities, more streamlined, more 
predictable and more transparent. So we're actively working on 
that.
    As to the posting of information and schedules on the 
dashboard, that's something I will look into with my staff and 
will be happy to work with you and your staff on as well.
    Senator Portman. Well, I appreciate that answer, but I 
would like a yes----
    [Laughter.]
    ----because it is a statute. You understand the statute. 
You know what the rules are. So could you commit to us today 
that you will indeed post your timelines publicly?
    Mr. McIntyre. I will commit to you today that I will do 
that which is legally required of us, Senator. Since I have not 
had the opportunity to discuss this specific point you are 
raising with my legal team and staff more broadly, I'm 
reluctant to say more than that at present.
    Senator Portman. Okay.
    Within a week, I would like to have another conversation 
with you when you have had an opportunity to do that.
    Mr. McIntyre. I would welcome that.
    Senator Portman. Is that fair?
    Mr. McIntyre. I would welcome it.
    Senator Portman. Good. So, you make a commitment to talk to 
me within a week and I think when you talk to your staff they 
will be very well aware of this issue and I will tell you that 
the statute requires it, but look, I think it is really 
important.
    The FERC has a huge role to play in so many areas, but one 
is these permittings and, again, I am convinced that we can do 
better and we are starting to do better. The Permitting Council 
has finally gotten up and going. It started slowly in the Obama 
Administration and in the first part of the Trump 
Administration, frankly, but now it is up and going and we need 
your help. You are a big part of it.
    On implementing the One Federal Decision (OFD), how are you 
determining which projects will be treated as OFD projects?
    Mr. McIntyre. As which? I'm sorry, sir.
    Senator Portman. As One Federal Decision projects?
    Mr. McIntyre. Well, the One Federal Decision process 
establishes essentially a government-wide goal of two years. 
And we are, excuse me, endeavoring to address that through our 
FERC processes recognizing, of course, the roles of the other 
entities involved in that as well.
    Senator Portman. Okay, well if you could get back to me on 
how you are identifying which projects are eligible. My time is 
expired. I appreciate it. I look forward to talking to you 
within a week.
    Mr. McIntyre. I will look forward to our follow-up on that, 
Senator.
    Senator Portman. Yes, and thank you all for being here 
today.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Portman.
    Senator Cortez Masto.
    Senator Cortez Masto. Madam Chair, I am going to allow my 
good colleague here to go ahead of me.
    Senator King. Thank you, I have a commitment. Thank you, 
Senator.
    The Chairman. Senator King.
    Senator King. I appreciate it.
    First, I am sorry that Senator Gardner is not here. He 
raised the issue of LNG exports. This is not a question. I just 
want it on the record, I am gravely concerned that we do not 
get into exports to the point where it significantly impacts 
domestic gas prices, because we would be giving up one of the 
great advantages this country now holds in the world economy. 
There is one law this body cannot repeal and that is the law of 
supply and demand. When I hear of 14 projects on the drawing--
in the permitting stages and another 6 on the way, I just want 
to put on the record a note of caution that if we export to the 
point where it affects domestic prices, we will have injured 
our manufacturing economy as well as our consumers. That is 
number one.
    Number two, Mr. Chatterjee, I would appreciate it if you 
could supply for us data on the tax cuts related to lowering 
electric bills by state, if possible. You do not need to do 
that now, but if you could supply that for the Committee, I 
would like to see that. I am not aware of the data on that.
    Commissioner LaFleur, you are a New Englander and you have 
seen the dependency in New England on natural gas go from 5 
percent to 50 or 60 percent. I just looked, and it is 46 
percent at this very moment. Does that raise concerns for you 
both about price and reliability in terms of the pipeline 
network?
    I serve on the Armed Services Committee. I think the risk 
of a cyberattack on our pipelines and our electric grid is 
something that we need to take account of. We have also talked 
about the historic low price of gas. What goes down can also go 
up. Share with me your thinking on that.
    Ms. LaFleur. Well, thank you, Senator.
    I think New England, really uniquely, has a fuel security 
issue because of the very constrained pipeline capacity coming 
in to New England.
    Senator King. That is the third issue.
    Ms. LaFleur. We don't see that situation anywhere else 
where we have a quite robust pipeline grid.
    And----
    Senator King. But what if I am right, for example, and we 
get into exports in a big way--the price of gas goes from $2.50 
to $6.00, and we are in trouble in New England.
    Ms. LaFleur. What I--I've spent a lot of time with people 
up there on what they want their future to be and I do not--I 
have come to the belief that the region does not want new 
pipelines because, or many, many people in the region have been 
very opposed to pipelines that have come before us, even ones 
we've certificated have not actually been built yet.
    Senator King. I am sorry to interrupt, but----
    Ms. LaFleur. And so, I think they're looking to a future of 
bringing in more other resources and of having fuel storage in 
the winter in order to take us through those limited periods 
where there's not enough gas.
    Senator King. To me the question that really is worth 
discussing is that we have a price risk and we have an 
infrastructure risk. And the question is, what are we willing 
to pay for an insurance policy against those two risks? That 
may involve keeping some uneconomic coal plants or nuclear 
plants online somewhat longer. But in order to make that 
judgment, we need to know the cost of the insurance policy.
    Ms. LaFleur. At this point----
    Senator King. Let me ask Mr. Powelson his thoughts on that.
    Mr. Powelson. Senator King, first, I agree with you and it 
is, it comes down to a risk capacity and a risk tolerance 
equation. And what I mean by that is yes, to Commissioner 
LaFleur's point and I, too, agree that over the next decade 
we're not going to be, unfortunately, bringing 30-inch pipe 
into the New England market. I can share with you why offline.
    By the way, if anybody here wants to amend the Jones Act, 
we would love to move barged natural gas rather than the 
Russian tanker that had to go into your facility there at 
Canaport, move that product up. But that's a whole other 
discussion.
    The problem for us and, again, I think where we are trying 
to manage and work with the RTOs and the ISOs is one, make sure 
we don't run into a rut where we, to your point about fuel 
security, and not having enough storage or not having enough 
nuclear capacity or baseload, as Senator Manchin mentioned. I 
think we're trying to really be diligent there and do it in a 
market construct. And if we do that, I think at the end of the 
day, I think we'll be able to one, assure you, as a policymaker 
and as a former Governor, that prices aren't going to go 
through the roof. And two, to the moving of the product 
efficiently and safely and affordably, that we not compromise 
on that either.
    Senator King. So there needs to be some real hard analysis 
of the cost because that is the price of the insurance policy 
and that is really, I think, the analysis that we need.
    A final point, and I am out of time. Mr. Powelson, I found 
your testimony, all of your--this has been a wonderful hearing. 
All of your testimony was most informative, data-driven and 
really impressive.
    Mr. Powelson, yours was very thoughtful, I thought. I 
really commend you for entering into this study on DERs because 
there is a dispute, as you know, nationwide about impact of 
cost on the grid and on other ratepayers. We need a really good 
analysis of cost and benefits in terms of national security and 
distributed grid self-healing, and what are the values there 
that offset cost in terms of storage and those kinds of things.
    So I commend you for the storage decision. I think that was 
very important. And the DER could really help us nationally by 
establishing what are the benefits and what are the costs and 
what are the--what is the data building a really strong record 
that can help us and PUCs across the country to make these 
decisions.
    I thank you for your testimony today.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    For Chairman McIntyre, the electric resiliency discussion 
is very important. We need to think about the proper balance 
between baseload coal, natural gas, nuclear, so forth, and 
variable energy sources like wind and solar.
    In January of this year FERC announced it was rejecting the 
Energy Department's proposal to require grid resiliency pricing 
to incentivize coal and nuclear power plants. Instead, FERC 
subsequently announced a new docket exploring grid resilience 
at the regional level and soliciting public comment from the 
stakeholders.
    Here are my questions: What is the status of the docket? In 
your view, what are the key aspects of resiliency? And what 
role is FERC playing in this larger discussion?
    Mr. McIntyre. Thank you for the questions, Senator.
    The status of the process is that the first step to be 
taken, pursuant to our directive in our order in January was 
that the nation's operators of organized wholesale markets, the 
RTOs and ISOs, begin by providing us their insights into grid 
resilience within their respective footprints. We took that 
step because they have broad oversight of the actual operations 
within those geographic areas. And so, they are best positioned 
to make observations on the types of effects, resources and 
conditions that can have resilience-related consequences. They 
fulfilled that role.
    We also provided an opportunity for other stakeholders to 
comment. That record now has been built and the record is 
currently being actively studied by our staff at the FERC. And 
we'll be making determinations next on what steps forward are 
appropriate.
    Senator Hoeven. Okay.
    For both you and for Commissioner Chatterjee, many 
stakeholders continue to express that current wholesale market 
rules do not adequately compensate generation that incurs cost 
to remain on standby but is called upon to meet load and 
response to variable generation, for example, wind generation, 
other variable generation.
    Is FERC exploring the option of providing system operators 
with guidance to implement some kind of ramp or standby rate to 
provide sufficient mitigation to ensure that these generation 
assets can continue to provide essential service to the grid 
when called upon to do so?
    For you and then also for Commissioner Chatterjee, please.
    Mr. McIntyre. What we already do, Senator, is we have, in 
certain markets particularly, mechanisms for compensating 
generating resources for their reliability-related attributes 
that they provide to the grid and their ability to perform when 
called upon. There are both carrots and sticks in that which, I 
think, is sending proper market signals.
    One of the key questions we'll be looking at in the 
resilience context is whether there are comparable mechanisms 
that should be focused, not necessarily on reliability, per se, 
but the longer-term concept of grid resilience and, if so, what 
should be both the mechanism for providing that compensation 
and the means of doing the math and getting that right.
    Senator Hoeven. And this is something you are looking at 
and understand the need for?
    Mr. McIntyre. Yes, sir.
    Senator Hoeven. Okay.
    Neil?
    Mr. Chatterjee. Just to build on that, Senator, I think, 
you know, as we build our record and make sure that we have the 
appropriate supporting evidence and look at central reliability 
services and what the appropriate compensation mechanism would 
be, we need to do it in a fuel-neutral way and based on the 
record that we have.
    The DOE NOPR last fall which attempted to compensate 
certain generation sources for having onsite fuel and that 
question of onsite fuel--the record simply did not support 
taking that action. So any action that we take going forward 
has to be supported by the record and be legally defensible and 
be done in a fuel-neutral way and, in my preference, in a way 
that doesn't destroy markets.
    Senator Hoeven. Right.
    But it has to start happening or you are going to lose some 
of that baseload that we may need, right?
    Mr. Chatterjee. So that is, you know, that is the question 
for us is, you know, the sense of urgency in completing this 
action. I had actually, in my concurrence to dispensing with 
the DOE NOPR, proposed a show cause order to work with the RTOs 
and the ISOs to identify where their resilience challenges may 
be and give them an opportunity to amend their tariff if it was 
so necessary. And so, I do believe there is an urgency to doing 
this examination, but we have to do it right. We can't cut 
corners. We have to have the record and it has to be legally 
defensible.
    Senator Hoeven. If you had recommendations for legislation 
in this area, it would be good to know what they are to the 
extent you are allowed to do that and so forth. I would be very 
interested in that. Okay?
    Mr. Chatterjee. Thank you, sir.
    Senator Hoeven. Commissioner Powelson, you were commenting 
on moving natural gas. We have to build more, not only natural 
gas pipelines, but other pipelines as well. What can FERC do to 
help make that happen?
    Mr. Powelson. Well, Senator, I think again, I think 
Chairman McIntyre alluded to in Senator Portman's question 
about, you know, really applying what I call value engineering 
and how we go about permitting and do it, you know, not to cut 
corners on safety, adhering to federal statutes like NEPA and 
the Clean Water Act, but really making sure that, you know, and 
not--and doing it in a transparent manner with public input.
    I think for us, it's just really, you know, the FAST Act is 
certainly a starter there and expedited permitting. So to the 
earlier point, I think Commissioner Chatterjee mentioned, you 
know, these pipeline projects, there's a lot of capital that 
needs to be deployed, there's a lot of risk capital when there 
are delays and we need to provide some type of, I'll say, 
regulatory certainty. And I think it starts with the efficiency 
in the permitting process.
    And I'll leave you with one last point. Last year in our 
state of the market, we put about 800 miles of new pipe into 
service, okay. That's across the 50 state footprint. Less than 
10 of it went into New England.
    Senator Hoeven. Fine. I appreciate your comments very much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair.
    I want to echo some of the comments. This has been a great 
conversation. Every single one of you, thank you very much, 
very, very informative.
    I want to associate myself with Senator Heinrich's 
comments. I, too, want to applaud you for taking action in view 
of Order 841. I know you are continuing to look at this space, 
and I look forward to the rulemaking and what comes of it. So 
thank you.
    I would like clarification just to make sure. I have done 
some research here and what I found is that most electricity 
outages occur because of transmission and distribution outages, 
not because of problems with generation. In fact, what I found 
is that 96 percent of electricity outages are from transmission 
and distribution problems, not from a lapse in generation. 
Would anybody disagree with that?
    Ms. LaFleur. That's correct, Senator.
    The vast majority of problems are actually on the 
distribution network and are usually weather related. Sometimes 
other things like pole hits and lightning--oh, lightning is 
weather--pole hits and animals and so forth.
    Then the second is the transmission network. We don't use 
the big high voltage lines as much, but sometimes we do. The 
far fewer than one percent of outages are related to 
generation. The way the system is built when you lose a 
generating unit for any reason, you're supposed to use the 
wires to put another one back in.
    Senator Cortez Masto. Thank you.
    That is why I am interested in the conversation that we are 
having about how FERC can improve transmission planning 
processes to encourage construction of a stronger, more 
resilient grid, an electric grid.
    I know some of you have commented. Does anybody else want 
to comment on that?
    Mr. McIntyre. Senator, I would simply add that much of that 
very important work goes on at the state level in the state 
counterparts to the FERC, the state public utility service 
commissions.
    Senator Cortez Masto. Thank you.
    That has not been brought up, so that is an important 
component of this, that cooperation at the state level as well.
    Mr. Powelson. Yeah, I would agree.
    As a former state regulator, you know, to your point 
earlier, I'll let, you know, dealing with Hurricane Sandy 
restoration, you know, the power plants were running pretty 
much. It was the distribution network, the wires and poles. And 
thanks to the efforts of mutual assistance, we did a remarkable 
job, but I mean, there are certainly--these weather events 
have, you know, wreaked havoc on the distribution system.
    And to the credit to the Chairman's point, state public 
utility commissions monitor what we call these CAIFIs (Customer 
Average Interruption Frequency Index) and SAIDIs (System 
Average Interruption Duration Index) and many public utility 
commissions have started electric safety divisions to really 
drive home that there's investment in vegetation management and 
that there's grid hardening at the distribution level. And to 
Commissioner LaFleur's point, yeah, about 90 percent of the 
outages are caused by, at the distribution level.
    Senator Cortez Masto. Okay.
    Mr. Chatterjee. Just to make a slightly different point and 
build on this. Your state has been at the epicenter and been 
the beneficiary of competitive transmission. And I think that 
is an important role in this as well.
    Senator Cortez Masto. Thank you.
    Ms. LaFleur. I think, Senator, we've done a lot to try to 
promote transmission planning and cost allocation.
    I was honored to be in North Las Vegas when the online was 
energized and there definitely is more transmission that will 
be needed in order to promote the use of location-constrained 
renewables in places like Nevada. But I think both with our 
rate-making and our planning work, we are trying to promote 
transmission.
    Senator Cortez Masto. I appreciate that. Thank you.
    Mr. Glick. Senator?
    Senator Cortez Masto. Please.
    Mr. Glick. If I could just add quickly to that. As you know 
the West has, in a number of past years, been ravaged by forest 
fires and I think that's a significant impact. Obviously, with 
climate change we're going to be seeing a lot more of that and 
that's a grave concern. I think we need to take into account 
the ability of the transmission grid to withstand and build a 
transmission in a more resilient manner to make it withstand 
more forest fires.
    Senator Cortez Masto. Yes, I think we would get agreement 
here from this Committee on that subject. It has been a topic 
of conversation thanks to the Chair and Ranking Member in 
conversations we have had.
    But Mr. Glick, while I have you, I have about a minute 
left.
    In terms of fuel security in the role of onsite fuel, how 
do you view the role of other technologies? We were talking a 
little bit about that, such as renewables and distributed 
energy resources, as providing that fuel-secure energy, and you 
touched on it in your opening statement.
    Mr. Glick. That's a great point because we spend most of 
our time, when we talk about fuel security, we talk about big 
baseload power plants, coal, nuclear, for instance and so on. 
But I think you're exactly right, that if we actually can 
increase our resilience and our reliability of the grid by 
looking at some of these other technologies--storage, 
obviously, distributed energy resources, microgrids. Microgrids 
are a great example. I know this Committee has done a lot of 
work on that. If we're serious about making our grid more 
reliable and especially making our military bases more 
reliable, I think we look more at those technologies and not at 
the bigger power plants.
    Senator Cortez Masto. Thank you.
    Thank you all, I notice my time is up. Thank you so much 
for the conversation today.
    The Chairman. Thank you, Senator.
    Senator Lee.
    Senator Lee. Thank you, Madam Chair.
    I want to thank each of you for being here today and being 
willing to answer our questions.
    I want to start with you, Chairman McIntyre. I want to talk 
briefly about the Lake Powell pipeline project in Southwestern 
Utah. As you know, this is one of the fastest-growing 
population centers in the entire country, and this is a project 
that has been going on for some time and is badly needed for 
the local population.
    After a decade of FERC acting as the lead agency for the 
project, the Commission indicated a few months ago that it had 
not yet determined whether it has jurisdiction over a very 
significant portion of the project. The abrupt notice of this 
development at such a late stage in the process has obviously 
introduced a whole lot of uncertainty into the project and 
could result in significant time delays and the expenditure of 
a lot of money that the state has invested in this project over 
the last decade or so.
    You may recall that my colleagues and I from Utah's 
Congressional delegation sent you a letter on January 23rd 
asking about this issue. In December, the Utah Board of Water 
Resources filed a petition for a declaratory order with FERC to 
clear up ambiguity regarding FERC's jurisdiction over the Lake 
Powell pipeline. You responded to my January 23rd letter with a 
letter that you authored on February 23rd and you acknowledged 
that we had sent the letter and said that you would do 
everything you could to take into account our concerns and to 
address them.
    Here we are nearly four months later, and we still do not 
have an answer. Now the state had requested in its letter, in 
its petition in December, for FERC to take some action by 
February but we still do not have action by the Commission.
    Can you explain to me why FERC is just now, in the last few 
months, questioning its jurisdiction over the project?
    Mr. McIntyre. I presume, Senator, that you're referring to 
communications from our Office of Energy Projects and I will 
commit to you now to look into this promptly and I hope it will 
be acceptable to you that I be in touch with you and your staff 
so that we can advance the ball on this.
    Senator Lee. That would be great. I would really appreciate 
that a lot. Can you give me any indication as to when the 
Commission might be able to make a final determination on this 
matter?
    Mr. McIntyre. Well, I'll be in touch with you within the 
week.
    Senator Lee. Okay.
    Mr. McIntyre. And we can discuss that matter at that time, 
if that's acceptable to you, Senator.
    Senator Lee. Thank you. Yes, I appreciate that.
    Commissioner Powelson, you stated that the President's 
directive to the Department of Energy to subsidize certain 
energy sources could potentially blow up competitive 
electricity markets. Aside from the market impact, can you tell 
us how the directive could affect FERC's operations and its 
resources?
    Mr. Powelson. Senator, I apologize. I might have toned it 
down a little bit using the word ``blow up''----
    [Laughter.]
    ----would have a profound impact.
    [Laughter.]
    I worry, as I said earlier in my testimony, these markets, 
as I said earlier, are working hyperefficiently right now. 
We've come from, you know, in 2008 when I was a public utility 
commissioner, $14 gas. We were importing gas. Power prices were 
pretty, at high marks in these organized markets. Now we're in 
a low $2.21 and change market with new supply.
    And so, I worry, if I'm a current investor--let's just 
again go back to the PJM example. I'm a merchant generator that 
has cleared the capacity auction. I'm a combined-cycle gas 
plant. And all of a sudden, a federal agency puts this new 
mandate down that will basically usurp the marketplace and 
cause my investment to be stranded. That's what I worry about. 
And it could be a combined-cycle gas operator. It could be 
another renewable energy resource.
    I want you to keep in mind that when governors like Tom 
Ridge and Christy Todd Whitman and George W. Bush and others 
did electric restructuring back in the '90s, customers paid a 
competitive transition charge for all of those generation 
assets.
    So I don't want to go back, I think it was expressed 
earlier by Commissioner LaFleur, I don't want to go back to 
that model of integrated resource planning and putting added 
charges into these markets the customers have already paid for. 
And now we're seeing the best of all worlds--new resources, 
cleaner resources, more efficient resources coming into the 
marketplace. The markets are creating orderly entry and exit 
and to put someone's risk capital at play, I have grave 
concerns about that. It goes against everything we talk about 
in terms of supply and demand-side economics.
    Senator Lee. Thank you.
    Madam Chair, if I could ask one follow-up question on this? 
Back to Mr. McIntyre, are there things that FERC can do and 
that industry can do to enhance grid resilience that do not 
involve subsidies for specific energy resources?
    Mr. McIntyre. Yes, I think there are, Senator. Indeed, we 
have taken such measures.
    We've taken steps to, for example, grant pre-approvals for 
sharing of cost of spare transformers. Something that, 
undeniably, helps to promote resilience. We've taken other 
actions in that vein as well.
    Resilience is a complex concept and, indeed, part of our 
ongoing work in our grid resilience proceeding is to ensure 
that we fully understand all aspects of the concept. They're 
probably reflected in our decision-making.
    Senator Lee. Thank you very much.
    The Chairman. Thank you, Senator Lee.
    Senator Smith.
    Senator Smith. Thank you, Madam Chair, and thanks to all of 
you for being here.
    I regret that I missed some of the back and forth between 
you and my colleagues a little earlier, but I really 
appreciated your testimony which I looked at last night. So 
thanks very much.
    I understand that there was a good discussion around the 
Administration's proposals around, sort of, favoring coal and 
nuclear even if they are not price competitive. One thing I 
wanted to ask you about is related to that a little bit.
    My understanding is that demand for electricity in the 
United States is actually not growing. And even if we were all 
to start using electric cars tomorrow, that would, sort of, 
only temporarily postpone an expected long-term decline in 
energy use.
    My question, maybe I will ask this of you, Mr. Glick. At 
this time when we would actually have more generation than we 
even need even with reserves, if we were to pursue a policy 
that would favor one method of generation over another--of 
course, I care about this being from the Midwest where we have 
such strong wind energy--could you just talk a little bit 
about--you have background in this as well--what impact that 
might have on wind energy producers in the Midwest?
    Mr. Glick. Well, I think certainly to the extent certain 
facilities that were intended to be shut down or subsidized or 
somehow kept around for different reasons, that would certainly 
suppress other generation, other generation would run. It 
certainly would be out of the money, and otherwise, that other 
generation would otherwise be economic, but for that subsidy of 
keeping the other plants open. So I think it would certainly 
have a depressive effect on investment in the market.
    I think we're actually seeing these markets work and 
actually ensuring that our older, less-efficient generation is 
retiring. Xcel utility, that obviously serves a big part of 
Minnesota, recently announced that they were going to shut down 
a couple of coal plants and invest more in renewable energy, 
not necessarily because there's any state requirement--there 
isn't, they've already met their state requirements--it's 
primarily because those plants are cheaper.
    Senator Smith. Right.
    Mr. Glick. And then better for their customers.
    Senator Smith. Exactly. It is more, it allows them and 
Minnesota to meet our goals of having affordable, reliable and 
clean energy. It also strikes me that this could potentially 
stifle other innovation that we see happening all over the 
place around wind, solar, storage, and all those issues. Would 
you say that is right?
    Mr. Glick. I think that's absolutely right. It wouldn't 
just affect generation resources, it would affect other 
alternatives, obviously, at the distributed resource level and 
everything else, essentially make other products less economic 
and therefore less likely to succeed in the market.
    Senator Smith. Yes.
    I just have another thing I would like to touch on a little 
bit.
    FERC has, for some time, resisted the idea of accounting 
for climate risk when permitting energy infrastructure. Last 
year, as I understand it, a court suggested that FERC had not 
properly evaluated the effects of greenhouse gas emissions when 
it approved the Southeast Market Pipeline Project. There was a 
split vote, as I understand it, on the Commission.
    So my question is this. I'll go to Mr. Glick again. Can you 
explain the tools that are available to FERC right now that 
would allow it to include the impact of greenhouse gas 
emissions when you evaluate a project?
    Mr. Glick. Sure.
    Well, so the issue in the court case you were talking about 
out of the DC Circuit was essentially downstream emissions. So 
FERC does take a look at the greenhouse gas emissions 
associated with actually building the pipeline.
    Senator Smith. Right.
    Mr. Glick. But what the Commission has been reluctant to do 
on most occasions is look at the downstream impact and also the 
upstream impacts. So essentially when you burn the natural gas 
downstream, the greenhouse gas emissions and upstream when you 
produce it, the methane and other greenhouse gas emissions, as 
well associated with production of natural gas.
    And so, I think the Commission, essentially, has suggested 
that it's not that, at least announced in recent policy, that 
the Commission is not going to, and a majority of the 
Commission announced that's it's not going to take a look at, 
in many cases, not going to take a look at the greenhouse gas 
emission. It's not necessarily that you're going to ask the 
developer where the gas is going, not going to essentially ask 
how the gas is going to be used and also where the gas is 
coming from. And again, I think that actually violates both the 
Natural Gas Act and NEPA, in large part because we're required 
to take a look at all reasonably foreseeable impacts on the 
environment. And clearly, climate change has a significant 
impact on the environment.
    And secondly, we're required to take a look at the public 
interest, examine whether a pipeline is in the public interest. 
I find it difficult to look at the public interest if you're 
not going to ask the question about what the emissions are 
going to be associated with that pipeline.
    Senator Smith. Okay, thank you.
    Does anyone else want to comment on that?
    Ms. LaFleur. I would also agree that this is something 
we've been thinking about for a long time, but the DC Circuit 
case was really a watershed moment and it's saying that we 
hadn't properly considered the indirect impacts of the 
pipeline.
    And the only thing I'd add that Commissioner Glick didn't 
say is we're currently looking, taking a broad look at how we 
do our pipeline work. And I think this is one of the most 
important points to look at, how much information we get in the 
docket as to what's really driving the need for the pipeline. 
Who is going to use it? That will help us figure out, first of 
all, if we need the pipeline, if it's in the public interest 
and do a much better assessment of all of the environmental 
impacts, including the landowners impacts as well as climate.
    Senator Smith. Thank you very much. I appreciate it.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Smith.
    Senator Daines.
    Senator Daines. Chairman Murkowski, thank you.
    It is historic to have the entire Federal Energy Regulatory 
Commission before us here today. I can count every one of them 
right here. And it cannot come at a better time as there has 
certainly been some dramatic shifts occurring across the 
country in our energy markets.
    Commissioner Chatterjee, you made history two weeks ago, 
you know you kind of wonder what I am going to say next. Two 
weeks ago tomorrow, you were in Colstrip, Montana. You were the 
first Commissioner to ever visit the Colstrip Power Generating 
Station. It is one of the largest coal-fired plants west of the 
Mississippi and the largest economic driver in our state. In 
fact, you also participated in my Energy Summit the following 
day where we discussed the importance of an all-of-the-above 
energy approach, the importance of the Colstrip plant and the 
benefits it provides in relation to baseload generation. This 
plant has an outsized impact on Montana: about 350 highly paid 
employees, $52 million in annual payroll; the Rosebud Mine, 380 
jobs, 3,700 indirect jobs statewide; taxes, $104 million in 
state and local taxes. This is how we continue to keep funding 
our schools, our teachers, infrastructure.
    Thanks to Colstrip, Montana is a net energy exporter. In 
fact, that plant alone generates enough power for 1.5 million 
homes. Forty percent of this power serves customers in the 
State of Washington, the other 25 percent to states other than 
Montana. There would be a significant gap in service for homes 
and businesses in other states without Colstrip.
    The 500-kV line also carries a large portion of electricity 
for Montana. Without the Colstrip plant there would be a 
significant gap in capacity on this line. We talk about grid 
resiliency and reliability. Without that plant, it makes the 
grid vulnerable and the reliability of service to Montana 
families at risk. The longevity of coal plants in Montana like 
Colstrip and the reliability of the transmission line demand 
close attention by the Commission and all the Federal 
Government including the DOE.
    I know there has likely been some discussion regarding 
DOE's leaked memo on protecting coal and nuclear plants for 
national security. I know the devil is in the details. I don't 
think you can argue though with the importance that baseload 
generation is to grid resiliency and national security. Just 
look at Australia, look at Taiwan, look at Germany as case 
studies. They have gone before us. They shifted from baseload 
generation like coal and nuclear too quickly and they 
experienced blackouts. In fact, I was in Taiwan not long after 
the August blackout they had a year ago. Higher energy costs 
and a lack of access to reliable electricity.
    My point is not that coal and nuclear should be our only 
source of power. In Montana we have hydro. We have wind. We 
have solar. We have biomass. We have coal. We have oil. We have 
natural gas. I think it should be diverse, and we should not 
put all our eggs in any one basket.
    Commissioner Chatterjee, could you share with this 
Committee some of your impressions on Montana's energy 
challenges and how important you think baseload generation, 
like coal generation, are to meeting our nation's energy needs 
and grid resiliency?
    Mr. Chatterjee. Thank you for the question, Senator, and 
thank you again for hosting me in Montana.
    Seeing Colstrip, visiting both the plant and the mine that 
feeds it, I came away appreciating the significance of energy 
in Montana, but also in that community. That community exists 
because of that plant and because of the mine that feeds it. 
And if the plant closes and the mine subsequently shuts down, 
people in that community were concerned that that town would 
cease to exist.
    Probably the most powerful moment of the visit to me was at 
the townhall that you convened with the mayor. I stayed back a 
little bit and lingered and the two police officers who were in 
the room observing the meeting, protecting us, they were 
waiting for me at the door as I left. And I had expressed 
during the townhall my sympathy having seen the devastation in 
Kentucky communities when these plants and mines shut down and 
I expressed that sympathy. And they pulled me aside and said, 
you know, we don't pretend to know the complexity of these 
issues that you guys are dealing with, but thank you for 
somebody in Washington being concerned and thinking about 
communities like this. And that really struck me about the 
human impacts of this broader, hypertechnical conversation that 
we're having about grid resilience and reliability. That is not 
something that we factor into our record. We will look at 
plants like Colstrip and make a determination based on the 
reliability impacts and its significance to that region and 
whether there would be threats to reliability in the event that 
the plant is shut down. But that's certainly something that is 
well within your purview, and I do appreciate everything you're 
doing to fight for that community.
    Senator Daines. Well, thanks for taking time away from your 
family to make the long trek out to Montana.
    If I could summarize and make a closing remark, Chair 
Murkowski? I hope we can move the dialogue in this country to 
not pitting a battle between either you are in the renewable 
camp or you are either for it or against it. We really do need 
to say renewables are an important part of our energy 
portfolio; but so is coal, so is natural gas, so is oil.
    We had Japanese visitors at our energy summit there in 
Montana. After the great Fukushima quake in March 2011 I was 
running a software business there in Japan from Bozeman, 
Montana, back then when my vice president called me from 
downtown Tokyo after they just experienced a 9.0 quake. It is a 
pretty chilling kind of conversation to have.
    What happened in Japan? They used to have 53 nuclear 
plants. They decommissioned them because of the problem they 
had with some contamination from a 9.0 quake. They brought up 
about 7 of those 53 but what are they doing? They are pivoting 
over to coal, to coal as well as renewables, but that is a very 
important part of their long-term energy plan for grid 
resiliency and grid reliability.
    What do they want? They want more U.S. coal because 
President Xi has militarized the South China Sea where they 
have Australian and Indonesian sources of coal. Montana and 
Wyoming coal has lower sulfur so it is more environmentally 
friendly. It is a little lower cost. It could help us in our 
economy in the United States and in Montana. It will help 
Japan, a critical ally. I just hope we can have a commonsense 
discussion.
    There is Japanese investing in clean coal technology. We 
can do the same thing here in America and protect that 
important source of energy which is still about 30+ percent of 
the supply of energy here across the United States.
    So thank you for making the long trek.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Daines.
    I so appreciate the very good conversation that we have had 
here this morning. We have kept you a while. I am just going to 
ask one, maybe two, questions and then we can wrap up.
    There has been a great deal of discussion about the changes 
that we have seen in the energy sector, again, in this past 
decade and all that that means to the regulatory agency that 
has this oversight for review.
    As we look to your role, one of the things that we keep 
coming back to here in this Committee is it is wonderful to 
have the resource. We have a lot of resources in Alaska, 
whether it is oil or gas or coal or what have you, but if you 
cannot move the resource to where the market is, where the 
demand is, it is just sitting there.
    The discussion is about how we deal with this growing need 
for new pipeline infrastructure in this country and a 
recognition that you have a lot of people that want to enjoy 
the benefits of what is coming down that pipe, but they really 
would rather not see it. They do not want to see it in their 
state, do it somewhere else, but I think we recognize when you 
are talking about resilience and reliability, affordability, 
and safety, we have to figure out how we facilitate greater 
pipeline infrastructure.
    Chairman McIntyre, you mentioned the review that is 
underway. Can you just flush it out a little bit more for me in 
terms of how you see the FERC moving forward with this very 
critical and very necessary review relating to our 
infrastructure?
    We have been talking for about a year and a half now about 
the possibility for a big infrastructure package. From the 
energy side of things, I think we have some pretty good ideas, 
some shovel-ready issues, if you will, as it relates to that 
pipeline infrastructure. But can you share with me FERC's role 
in how we work to meet the need that we clearly have, 
particularly in areas of very high need in the Northeast?
    Mr. McIntyre. Yes, Madam Chair, happy to do that.
    The actual steps to our construct for this goes back to the 
1930s, but our most recent, at the FERC, our most recent 
vehicle for setting out our internal policy for how we process 
and advance natural gas pipeline projects dates to 1999. And 
so, it's time for us to take a fresh look at that, hence my 
announcement earlier this year that we would do precisely that. 
And I am, of course, but one of five voices on this Commission 
and my colleagues are very thoughtful regulators in their own 
right and I anticipate the thoughtful input from each of them 
that I have come to expect.
    I will say for my own part though, that I did not, I have 
no interest in initiating a review of our gas certificate 
policy area for the purpose of slowing anything down. My 
interest is in streamlining and making more efficient processes 
that we have.
    So I agree with the suggestion of your statement that we 
need to be efficient in this area and I, for my own part again, 
endeavor to do exactly that.
    The Chairman. Well, I appreciate what you have just added 
there at the end, that it is your intention that this review 
moves us toward a process that is more efficient, more prompt, 
more clear as it relates to issuing these FERC pipeline 
certificates.
    I know the question, it was actually asked by Senator 
Gardner with regards to adequate staffing within FERC and you 
indicated that you are looking to hire and we understand that, 
certainly from Alaska's perspective, we have a very significant 
proposal before the FERC. When I say significant, it is massive 
in size and you all know that because you probably have boxes 
in your office as it relates to that.
    But it has been an issue of mine and I continue to ask the 
question whether you believe the FERC is allocating the 
resources, really, the staffing, the resources to whether it is 
the LNG exports that Senator Gardner asked about or pipeline 
applications from states like Alaska.
    It is one thing to say you are hiring, but are you 
satisfied with the resources that you have for the Commission?
    Mr. McIntyre. Senator, I'm never satisfied. We are 
continuing to explore creative new ways to make our processes 
more efficient and to enable ourselves to address this 
significant amount of work that lies before us.
    I completely agree with your acknowledgement of the 
importance of, not only the Alaska project, but the many other 
projects that are pending. The Alaska one certainly is quite a 
massive one, and it's garnered a lot of attention within our 
staff and is a matter of ongoing work as it should be.
    The Chairman. One last question for you and this is as it 
relates to hydropower.
    Commissioner Powelson, I appreciated that you mentioned 
that when we think about baseload, in addition to nuclear and 
coal, hydropower can also be that source of baseload, if you 
will, and a very critical part of our overall energy portfolio. 
Certainly significant for us in Alaska, about 25 percent of our 
energy comes from hydro and we certainly see the benefit of 
clean and renewable power. But when you think about the impact 
of hydro it is, kind of, one of those ones that nobody really 
talks much about, but powering about 30 million homes, 
providing 100 gigawatts of the nation's energy, and displacing 
200 million metric tons of carbon dioxide emissions that we see 
each year.
    I am a big proponent of hydro and recognize that we have 
about a third of the nation's existing hydropower projects that 
will require license renewals by the year 2030--not too far 
off. Again, we have heard the testimony in this Committee that 
when you are looking at a relicensing, not a licensing for a 
new dam but a relicensing, it can take over a decade and costs 
can reach into the $50 million range.
    Senator Cantwell and I have worked on some improvements to 
the licensing process that add accountability, transparency and 
coordination amongst the agencies, but the question, and I will 
throw it out to any of you, is what we can do to ensure that 
unnecessary regulatory costs and delays do not result in the 
loss of existing hydropower projects because, when you think 
about it, if you are looking at a decade or more to go through 
the processing, millions of dollars, folks get a little bit 
discouraged and they throw in the towel. We cannot have that 
happening.
    So how do we work to make sure that there is an efficiency, 
that we are working to reduce costs and, really, what FERC can 
do administratively to improve the licensing process because 
this is something that we are all going to be dealing with in 
the not-too-distant future here.
    I throw that out to whoever wants to jump in.
    Mr. McIntyre. I'll kick it off, and then allow my 
colleagues to chime in.
    The Chairman. Thank you.
    Mr. McIntyre. We have taken some steps intended toward 
being helpful reforms recently. Last year, for example, we 
extended the standard license term. We also are looking at 
processes to streamline the stakeholder input process so that 
that, too, does not become something that slows down the hydro 
licensing process in and of itself. And we're actively 
considering additional measures that we can take in addition to 
ensuring that we have proper staffing to address these 
projects.
    The Chairman. Alright, because that is a piece of it as 
well.
    Commissioner LaFleur.
    Ms. LaFleur. I was going to mention the increase in the 
license term also, and I would say that the cycle of hydro 
relicensing is very well known and the people in energy 
projects have been staffing up to be able to meet that cycle 
for some time. We've known for some time we're hitting this 
high.
    I would say one of the bigger issues that we face is, well, 
under the Federal Power Act we're supposed to take into account 
not just electricity but water use, fish, irrigation, 
environment, recreation and there are a number of other 
agencies on whom we rely for orders, Fish and Wildlife, Army 
Corps, state water agencies and so forth. I think the 
Memorandum of Understanding that Chairman McIntyre signed was 
intended to provide a discipline of the process so the other 
agencies, even though we already have the right to set a 
timeline for them, we just can't enforce it, but there would be 
some more voluntary compliance and more keeping to the 
timelines because that's frequently one of the biggest drivers 
of delays in the processes is the interdependency.
    Mr. Powelson. Senator, just to pick up on that. I'd also 
add, as you mentioned with the swath of applicants fast 
approaching, I mean, we look at many of these assets. They've 
been, you know, they're 1950 vintage, but the components inside 
are modernized from new Siemens to GE turbines. And my point 
there would be is, kind of, making sure that if we have these 
boxes checked at the state level from the environmental 
regulator to the Army Corps that we could provide some type of 
conditional approval. That might help alleviate some of these 
concerns.
    But I pledge to you, I think we all will, to work with you 
and your colleagues to make sure that these projects are done 
in an efficient manner and approved in an efficient manner.
    Mr. Glick. Madam Chair, I just wanted to add, Commissioner 
LaFleur kind of hit on it, but one of the big problems, 
obviously, is the other resource agencies and it's 
bureaucratic. It's difficult. But I know that the energy bill 
that you all worked on that passed the Senate in the last 
Congress had a number of provisions really designed to improve 
that coordination. So, for instance, improve having the ability 
of the resource agencies to participate in the FERC process, 
the FERC licensing process up front which actually gives them 
the type of education of maybe they could go back to their 
agencies and maybe move a little more quickly on their part of 
the relicensing.
    The Chairman. Commissioner Chatterjee.
    Mr. Chatterjee. I would just add I did everything I could 
to get that bill signed into law.
    [Laughter.]
    The Chairman. Thank you, yes.
    We do recognize that we do have some very important 
provisions that were included in the energy bill that this 
Committee moved out and we want to get that across the line, 
because I do think that is an important piece of what it is 
that you do, recognizing that you can't necessarily control 
these agencies, but there has to be a little bit better 
process. And we think that we outlined some of that.
    We appreciate your assistance with that. So know that is 
something that we want to continue to work with you on.
    I think that this has been a very, very instructive and 
informative discussion here this morning as you saw from the 
participation from both sides of the aisle, very keen interest 
in what is going on within the Commission and certainly the 
insight and guidance that you all provide.
    Clearly, a great deal of discussion yet to be had as you 
work through these important initiatives and as we continue our 
role as the oversight Committee here working with an 
Administration that also is weighing in on, again, a subject of 
great importance to folks around the country.
    Thank you for your leadership and, again, thank you for the 
significant time that you have provided the Committee today.
    With that, we stand adjourned.
    [Whereupon, at 12:33 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
